   THE FEDERAL BUREAU OF

      INVESTIGATION’S 

WEAPONS OF MASS DESTRUCTION

   COORDINATOR PROGRAM

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 09-36

            September 2009

      THE FEDERAL BUREAU OF INVESTIGATION’S

WEAPONS OF MASS DESTRUCTION COORDINATOR PROGRAM


                            EXECUTIVE SUMMARY

      Chemical, biological, radiological, and nuclear weapons, also known as
weapons of mass destruction (WMD), have the potential to kill thousands of
people in a single attack. Although concern over WMDs is not new, the
disastrous consequences that may result from using these weapons has
spurred the federal government to prepare for and respond to WMD threats.

       The Federal Bureau of Investigation (FBI) serves as the lead federal
agency for investigating WMD crimes.1 The FBI focuses its WMD-related
activities towards preventing the illicit acquisition of WMDs and identifying
and disrupting their attempted use. The preemptive focus of these efforts
requires the FBI to use its investigative and analytical capabilities to identify
potential WMD suspects, targets, and threats before an attack occurs.

       Several different FBI investigative divisions once conducted WMD-
related activities. In July 2006, the FBI consolidated its WMD investigation
and prevention efforts into a WMD Directorate within its National Security
Branch. Comprised primarily of Special Agents, Intelligence Analysts,
program managers, and policy specialists, the WMD Directorate designs
training for employees of the FBI; other federal agencies; state and local law
enforcement organizations; and public health, industry, and academia
partners. The WMD Directorate also provides national-level WMD
intelligence support to FBI field divisions and to the larger U.S. Intelligence
Community. At the local level, the FBI primarily relies on a designated
Special Agent in each field division, referred to as the WMD Coordinator, to
implement a significant portion of the FBI’s WMD-related activities.




      1
          The Attorney General has lead authority to investigate federal crimes, which
includes the use or attempted use of a WMD. 28 U.S.C. § 533 (2008) and
18 U.S.C. § 2332(a) (2008). The Attorney General has delegated much of this investigative
authority to the FBI. 28 C.F.R. § 0.85 (2008). The National Response Framework,
prepared by the Department of Homeland Security and the National Implementation Plan,
drafted by the National Counterterrorism Center, outline how federal agencies should work
together to implement a broader strategy to detect, prevent, and deter WMD events.


                                            i
OIG Audit Approach

      The Department of Justice Office of the Inspector General (OIG)
conducted this audit to: (1) assess how the FBI’s WMD Coordinators should
plan and perform activities that address prioritized WMD threats and
vulnerabilities, (2) evaluate the FBI’s integration of WMD Coordinator
functions with field division intelligence capabilities and practices, and
(3) review FBI efforts to ensure that WMD Coordinators and others that work
on the WMD program have the skills and abilities necessary to detect and
prevent WMD attacks.

       In conducting this audit we interviewed over 80 FBI officials and
employees, including the Assistant Director of the WMD Directorate. We
conducted audit work at FBI headquarters in Washington, D.C., and at eight
FBI field divisions: Houston, Texas; Oklahoma City, Oklahoma; Baltimore,
Maryland; Washington, D.C.; New York, New York; Phoenix, Arizona;
Tampa, Florida; and Los Angeles, California. We also attended an FBI WMD
Coordinator training conference in Albuquerque, New Mexico presented by
the WMD Directorate.

      During this audit, we examined how the FBI supports and manages
WMD Coordinators to enable them to address pressing WMD threats and
vulnerabilities in their field divisions. We also reviewed how WMD
Coordinators interacted with Intelligence Analysts and examined how they
used information provided in WMD intelligence reports to enhance their
knowledge of threats facing their field division. We further considered
whether the FBI has provided adequate training for and oversight of its WMD
Coordinator and Intelligence Analyst personnel. In addition, we examined
WMD activity reports from each field division and reviewed strategic plans,
operational guides, and FBI directives to ascertain WMD Directorate efforts
to track and evaluate WMD Coordinator activities.

     Appendix I includes additional details on the objectives, scope, and
methodology of the audit.

Results in Brief

       The FBI has begun using the concept of domain management to
identify and prioritize the most significant WMD threats and vulnerabilities
facing each of its field divisions.2 WMD Coordinators serve as their field


       2
           Domain management is the process by which WMD Coordinators work with their
field division to obtain a strategic understanding, or domain awareness, of their area of
responsibility by a continuous assessment of threats and vulnerabilities.

                                             ii
division’s WMD subject matter experts. Nevertheless, for an internal FBI
review, many WMD Coordinators could not identify the top, specific WMD
threats and vulnerabilities that faced their particular field division.
Recognizing that WMD Coordinators and their field divisions were not able to
identify WMD threats consistently and completely, in September 2008 the
FBI began requiring that its field divisions conduct an initial WMD domain
assessment to help each division identify and prioritize WMD threats and
vulnerabilities.

       Despite serving as their field divisions’ WMD subject matter experts,
we found that WMD Coordinators have not participated directly on initial
WMD domain assessments. Instead, Intelligence Analysts from field
divisions’ Field Intelligence Groups worked with the WMD Directorate at FBI
headquarters to complete these assessments. Because domain assessments
are necessary for WMD Coordinators to obtain a strategic understanding of
WMD threats and vulnerabilities, we believe WMD Coordinators should
participate in their field division’s WMD domain assessment. Furthermore,
because individuals conducting domain assessments need to be familiar with
WMD-related information already obtained via FBI investigations, we believe
that the FBI should require that: (1) its field divisions periodically review
case files to identify and share WMD-related information with the WMD
Coordinator and (2) Special Agents who work with outside companies and
groups involved in WMD prevention and research share contact and outreach
information with their WMD Coordinator.

       In part to improve its information-sharing capabilities within the
greater U.S. Intelligence Community, the FBI is in the process of
implementing a new organizational framework and intelligence process to
catalyze the production of timely and actionable intelligence reports. We
found that the FBI has not formalized a method to facilitate collaboration
between WMD Coordinators and Intelligence Analysts that ensures WMD
Coordinators can fully use field division analytical capabilities to plan and
perform their work. Furthermore, the FBI does not require its Field
Intelligence Groups to designate specific Intelligence Analysts to work with
WMD Coordinators. As a result of these issues, WMD Coordinators had
limited or inconsistent interaction with their Field Intelligence Group, which
has hindered them from fully applying intelligence to identify specific WMD
threats facing their field division.

      During the audit, officials with some Field Intelligence Groups told us
that they were concerned that if Intelligence Analysts worked closely with
WMD Coordinators, Intelligence Analysts would end up relegated to
performing ancillary or administrative case duties such as following up with
sources or electronically scanning documents. These officials believed that

                                       iii
closer coordination between Intelligence Analysts and WMD Coordinators
would risk reducing the time Intelligence Analysts would be able to devote to
obtaining and reporting intelligence. Nevertheless, for the FBI to operate a
continuous process for providing an ongoing flow of WMD intelligence, we
believe that close interaction between WMD Coordinators and Intelligence
Analysts is essential. Once Intelligence Analysts are designated to work with
WMD Coordinators, the FBI should ensure that they are utilized
appropriately to identify and assess WMD intelligence instead of being
assigned to work on ancillary case duties.

       We also found that the FBI has not established specific qualifications
that WMD Coordinators need so that they can perform their critical
functions. Additionally, the FBI has not formulated training plans to ensure
that WMD Coordinators and WMD-assigned Intelligence Analysts acquire the
skills necessary to manage their field division’s WMD domain effectively.
Although WMD Coordinators and Intelligence Analysts had received various
types of WMD training, the training they received was not necessarily
aligned with the threats and vulnerabilities that these personnel faced at the
field division-level. We believe this was, in part, due to WMD Coordinators
not being involved in the field division WMD domain assessment, as well as
the FBI not adequately tracking the training received by its WMD field
division personnel. Without requiring that WMD personnel complete specific
WMD training and subsequently tracking its completion, the FBI is not
positioned to identify and mitigate knowledge gaps in WMD preparedness.

      In this report we make 13 recommendations relating to the FBI’s WMD
Coordinator program. These recommendations include implementing
procedures to help increase WMD Coordinators’ domain awareness, ensuring
that WMD Coordinators and Intelligence Analysts are sharing WMD-related
information, and providing the necessary training to ensure that WMD
Coordinators and Intelligence Analysts have the skills necessary to address
domain needs.

       The remaining sections of this Executive Summary discuss in more
detail our audit findings. Our report, along with the appendices, contains
detailed information on the full results of our review of the FBI’s WMD
Coordinator program.

WMD Domain Management

      Recognizing a need for a consistent mechanism that field divisions
could use to perform activities aimed at preventing terrorist attacks, in June
2008 the FBI began to apply the “domain management” concept to guide
and evaluate its field division WMD programs. As shown by the following

                                      iv
exhibit, WMD domain management is a process by which WMD Coordinators
and others continually identify, collect, and analyze information within their
area of responsibility. Once collected, the information is assessed
periodically to obtain a strategic understanding, or “domain awareness,” of
the most pressing WMD threats and vulnerabilities facing a field division.

                                  DEPICTION OF A COMPREHENSIVE
                                 WMD DOMAIN MANAGEMENT PROCESS


                                                                             Identify and Share
          START                                                               WMD Information
                                                                          WMD C oordinator and other
                                                                           Special Agents share WMD
                                                                          information from cases and
                                                                           work with non-FBI groups


   Field Division Selects
       Full-Time WMD
        Coordinator                                                       RESULT:
     Dedicated to conduct                                              "TRUE DOMAIN
 outreach, training, and other
     WMD program duties                                                 AWARENESS"

                                       Reassess Domain            WMD Coordinator
                                    WMD C oordinator works        conducts activities to
                                  with Intelligence Analysts to
                                   evaluate and re-prioritize     address prioritized threats              Perform Activities
     Develop Domain                domain vulnerabilities and     and vulnerabilities                   WMD C oordinator conducts
         Guidance                   risks based on updated                                             outreach, training, and other
 FBI develops standardized             domain awareness                                                 duties with domain entities
 guidance for field divisions                                                                            and gathers information
  to use to obtain strategic                                      Field division works to                about the WMD domain
 awareness of WMD threats                                         continuously update WMD
      and vulnerabilities
                                                                  domain awareness



  Conduct Initial Domain                                                     Plan Activities
        Assessment                                                    WMD C oordinator programs
    Identify and evaluate                                             outreach, training, and other
  domain entities to obtain                                             duties based on domain
      domain awareness                                                         awareness
 (strategic understanding of
 threats and vulnerabilities)




                 Integrated Analytical Support From Field Intelligence Groups


          Adequate WMD Coordinator and Intelligence Analyst WMD Training

Source: OIG depiction of a comprehensive field division WMD domain management process

       Continuous efforts to collect and assess information about domain
entities are needed to achieve adequate domain awareness. As shown by
the diagram above, a comprehensive domain management process requires
support from field division intelligence groups and adequate training for

                                                                  v
WMD Coordinators and Intelligence Analysts involved in the domain
management process.

       The FBI implemented the domain management process to guide its
field division WMD programs in June 2008 as part of an internal Semi-Annual
Program Review. As part of this review, each field division was asked to:
(1) identify its “top 10” WMD threats, (2) assess its intelligence support
capability, and (3) describe various training and outreach activities
performed by the WMD Coordinator. Some WMD Coordinators responsible
for compiling this information told us that they had difficulty identifying their
top threats and assessing their intelligence support capability because they
did not know how such information should be compiled or evaluated. WMD
Coordinators also told us they did not know how to perform a domain
assessment that was also required by the Semi-Annual Program Review.
Lacking specific instructions, some WMD Coordinators reported as their
top 10 threats issues that had been identified by previous ad hoc threat
assessments, while other Coordinators contacted their peers at other field
divisions for assistance in identifying threats.

        To assist field divisions in their efforts to obtain a strategic
understanding of their WMD threats and vulnerabilities, a team of FBI
Intelligence Analysts developed a pilot WMD domain assessment program
with specific steps that field divisions should follow to conduct a WMD
domain assessment. In our opinion, the steps developed by the pilot WMD
domain assessment program provided a useful and comprehensive initial
framework by which field divisions could identify and prioritize domain
threats and vulnerabilities. However, Intelligence Analysts were the only
field division personnel to participate in the pilot WMD domain assessment
process, which the FBI began conducting with field divisions in September
2008. As a result, we believe that the FBI has missed opportunities in these
initial assessments to include directly valuable information known by WMD
Coordinators resulting from their WMD investigations, outreach, and
training. As potential providers of important WMD-specific information,
WMD Coordinators should actively participate in future domain assessments
to ensure that such information is considered in evaluating and prioritizing
threats.

       Field divisions need to perform domain assessments continuously in
order to be aware of the constantly changing state of entities within the
WMD domain and to share this information with the appropriate parties. It
is therefore important that WMD Coordinators know WMD-related
information acquired by other field division activities and personnel. For
example, WMD connections may be uncovered by non-WMD investigations
and other field division personnel, such as the Joint Terrorism Task Force

                                       vi
Coordinator, may obtain WMD-related information while working with local
police departments. To ensure that WMD Coordinators are aware of such
WMD connections, the FBI needs to require that field divisions establish
standard procedures to identify and share all such information.

       FBI efforts to track and oversee WMD Coordinator activities can also
be improved. While the FBI WMD Directorate receives activity reports from
WMD Coordinators that detail their training and outreach activities, WMD
Coordinators do not submit such activity reports regularly. In addition, the
activities detailed by WMD Coordinator on these reports do not specify how
their activities target specific WMD domain threats or vulnerabilities facing
their field division. To ensure that WMD Coordinators conduct training and
perform other activities designed to address the threats and vulnerabilities
prioritized for their domain, the WMD Directorate should require WMD
Coordinators to submit activity reports regarding specific domain threats and
vulnerabilities on a regular basis.

Intelligence Collaboration

       In an effort to enhance its information-sharing capabilities within the
larger U.S. Intelligence Community, the FBI has been implementing a new
intelligence framework that realigns how it handles intelligence reporting.
These intelligence initiatives have required active collaboration between
various FBI programs, divisions, and personnel, including the FBI’s
Directorate of Intelligence, the WMD Directorate, and Field Intelligence
Groups at each field division. Although these groups have been organized to
work together in the prevention of WMD attacks, as shown by the exhibit
below, the FBI has not provided a standard method by which WMD
Coordinators and Field Intelligence Groups should share WMD intelligence at
the field division level.




                                     vii
                WMD PROGRAM INTELLIGENCE ORGANIZATION



 FBI
                                                       Intelligence
 Headquarters     Directorate of Intelligence          and Analysis         WMD Directorate
 Groups                                                  Section


                                                                              Investigations,
                          Intelligence
                                                                                Outreach,
                         Requirements
                                                                               Training, and
                              and
                                                                             Countermeasures
                           Reporting


 FBI                                                   No standard
 Field Office                                         communication
                   Field Intelligence Groups         channel between        WMD Coordinator
 Units                                            WMD Coordinator and
                                                Field Intelligence Groups



Source: OIG analysis of the Directorate of Intelligence and WMD Directorate

        As the lead field division contact and subject matter expert on WMD
 matters, WMD Coordinators need to acquire and use WMD intelligence
 regularly to address prioritized domain needs. Although the FBI has been
 working to distinguish analytical responsibilities and eventually embed
 Intelligence Analysts in various tactical investigative squads, the FBI does
 not typically require field division Intelligence Analysts to work directly with
 the WMD Coordinator. As a result, WMD Coordinators reported that they
 had inconsistent interaction with field division Intelligence Analysts, which
 negatively affects their ability to identify and report WMD issues. We found
 that only 21 of 56 field divisions, or 38 percent, designated a specific
 Intelligence Analyst to work with the WMD Coordinator.

        Field Intelligence Group officials and WMD Coordinators agreed that
 Intelligence Analysts and Special Agents do not always understand the
 approaches that each use to accomplish their work. WMD Coordinators and
 Special Agents who work with them focus on outreach and liaison activities
 that seek to prevent, prepare for, respond to, and contain terrorist acts.
 Intelligence Analysts spend much of their time evaluating raw or fragmented
 data and using their analysis to forecast potential threats facing their field
 divisions. We found some examples of WMD Coordinators collaborating with
 Intelligence Analysts to identify threats and vulnerabilities and other
 examples of Intelligence Analysts actively participating in WMD Coordinator
 outreach with important industry and law enforcement partners. However,
 some WMD Coordinators have only used analysts in ancillary roles, in part
 because some Field Intelligence Groups have been hesitant to designate
 specific Intelligence Analysts to work with WMD Coordinators. To some


                                                viii
extent, this hesitation occurs because Intelligence Analysts and their
supervisors perceive that they will be tasked with ancillary or administrative
case duties, such as following up with sources or electronically scanning
documents, rather than conducting research and gathering intelligence.
Once the FBI designates Intelligence Analysts to work with WMD
Coordinators, field divisions should ensure that these analysts are used
appropriately.

       WMD intelligence reporting is critical for identifying information needed
to achieve WMD domain awareness. We reviewed the number of WMD
intelligence reports issued by field divisions as reported in the June 2008
Semi-Annual Program Review and found that 30 out of 56 FBI field divisions
did not disseminate any WMD intelligence products during this period.
Meanwhile, only nine field divisions disseminated five or more WMD
intelligence products. The field divisions that were able to disseminate the
most WMD intelligence had an established approach to guide how their
personnel handled intelligence reporting.

WMD Coordinator and Intelligence Analyst Training

       The WMD Directorate is responsible for identifying, developing, and
offering WMD training throughout the FBI. Since its inception in 2006, the
WMD Directorate has increased the number of training courses and exercises
offered to WMD Coordinators, other FBI Special Agents and Intelligence
Analysts, and law enforcement personnel at federal, state, and local
agencies. WMD Coordinators, in turn, are responsible for training other FBI
Special Agents and field division personnel about detecting, handling, and
responding to WMD threats. Because they serve as the field division’s WMD
subject matter expert and need to conduct activities to address domain
needs, WMD Coordinators require specialized training on the highly technical
nature of WMDs.

       Field division managers are responsible for selecting Special Agents to
be WMD Coordinators. However, the FBI has not issued written
qualifications for the position, which has affected the WMD program in at
least two ways. First, without knowing the specific skills and abilities
required by the position, field division supervisors may not select the most
qualified Special Agents as WMD Coordinators. Second, already designated
WMD Coordinators may not know what additional training or skills they need
to acquire to be an effective WMD Coordinator. Although formalized training
plans could assist in ensuring that candidates become qualified for these
positions, no such training plans exist. The FBI has begun to develop a
WMD Coordinator certification program to aid in the development of WMD
Coordinator knowledge and skills. However, the FBI has not yet

                                       ix
implemented this program. Additionally, the FBI has not developed a WMD
training plan for Intelligence Analysts who support WMD Coordinators.

       We also found that the WMD Directorate lacked necessary mechanisms
to track and report field division WMD training and, as a result, could not
easily ascertain whether WMD Coordinators and Intelligence Analysts
received adequate training. The FBI’s Virtual Academy, the primary tool FBI
personnel use to track training received, could only track FBI-provided
training. Because FBI employees receive non-FBI WMD training that cannot
be tracked by Virtual Academy, the WMD Directorate could not use Virtual
Academy to ascertain the WMD training readiness of each field division.
Consequently, in September 2008 the WMD Directorate began working with
a contractor to expand and update another FBI training database called the
Training Readiness Management System. WMD Directorate officials told us
that once updated the database will provide them with the capability to track
training received by WMD Coordinators, Intelligence Analysts, and non-FBI
law enforcement and other WMD prevention and response partners. As
planned, the updated database will also allow the WMD Directorate to
identify training gaps and help FBI officials ascertain the level of WMD
readiness at each field division.

      However, our audit determined that once the Training Readiness
Management System is updated, it will not interface with information
contained in Virtual Academy. This means that to ensure the accuracy of
the information contained in the different systems, the FBI will need to
reconcile periodically the Training Readiness Management System with
Virtual Academy. Such reconciliation, if performed at regular intervals, will
ensure that both systems contain accurate information and potentially
improve the reliability of the data used by the WMD Directorate to ascertain
the WMD readiness of field division personnel.

Conclusions and Recommendations

       Although the FBI began applying domain management to its field
division WMD program in June 2008, it did not at this time provide WMD
Coordinators the necessary guidance to identify and assess the top WMD
threats and vulnerabilities within their respective field divisions. Lacking the
ability to prioritize threats consistently, WMD Coordinators could not conduct
outreach and plan training based on any concrete WMD-threat prioritization.
Further, the WMD Directorate did not require that WMD Coordinators report
their activities and training uniformly and therefore could not track what was
reported to ensure that Coordinators were addressing the most important
WMD domain threats and vulnerabilities.


                                       x
       The FBI also has not ensured that WMD Coordinators have sufficient
analytical support. Because WMD intelligence is critical for identifying
threats facing FBI field divisions, we found that WMD Coordinators require a
more-structured intelligence apparatus to provide them with intelligence
necessary to plan activities that address specific WMD threats. If
Intelligence Analysts worked more closely with WMD Coordinators on WMD
matters, these analysts would be better positioned to assist Coordinators in
producing actionable WMD intelligence.

       WMD Coordinators and Intelligence Analysts that work with them
require specialized training on the highly technical nature of WMDs. The FBI
has not implemented a formalized and required training program for these
personnel. The FBI has also not established certain minimum qualifications
for WMD Coordinators, and therefore some Coordinators had no background
in WMD matters or had received only limited training before being named
their field division’s WMD Coordinator.

       During this audit, the FBI and its WMD Directorate have taken steps to
improve the field division WMD program. In addition to instituting the WMD
domain management process, the WMD Directorate has implemented a full-
time WMD Coordinator initiative and began to design a training plan for
these critical WMD personnel. It has also taken steps to improve its training
tracking system. Nevertheless, our report identified several areas that we
believe need additional improvement. For example, the FBI should require
that field divisions regularly review cases for WMD connections and share
pertinent case information with appropriate personnel. The FBI should also
regularly reconcile data in the Training Readiness Management System with
Virtual Academy records.

      Our audit contains 13 recommendations to improve and sustain the
FBI’s use of the WMD domain management process and ensure that WMD
Coordinators have the resources and tools necessary to prevent and detect
WMDs. Our audit recommends that the FBI:

    •	 ensure that a WMD Coordinator or a designated assistant WMD
       Coordinator participates in the field division’s WMD domain
       assessment,

    •	 require that the WMD Directorate track WMD Coordinator activities
       against specific threats to ensure that each field division is
       adequately managing its WMD domain,

    •	 require that each field division designate an Intelligence Analyst to
       meet with the WMD Coordinator periodically and discuss planned

                                      xi
  work and provide feedback on whether these activities will address
  prioritized domain needs,

•	 develop a method that reconciles Training Readiness Management
   System data with Virtual Academy records,

•	 finalize its WMD Coordinator certification program opportunities and
   ensure that the certification program offers threat-based courses
   based on the WMD domain threats and vulnerabilities within a WMD
   Coordinator’s field division, and

•	 develop a targeted WMD training plan for Intelligence Analysts who
   work with WMD Coordinators that addresses the specific
   vulnerabilities and threats of the field division’s WMD domain.




                                 xii
         THE FEDERAL BUREAU OF INVESTIGATION’S

       WEAPONS OF MASS DESTRUCTION COORDINATOR 

                       PROGRAM


                                 TABLE OF CONTENTS


INTRODUCTION .................................................................................1


The National WMD Strategy ...................................................................1

FBI Efforts to Implement Its WMD Mission ...............................................3

   WMD Directorate ..............................................................................5

   WMD Coordinators............................................................................7

OIG Audit Approach ............................................................................ 10


FINDINGS AND RECOMMENDATIONS...............................................11


I.	    WMD COORDINATORS NEED TO PARTICIPATE IN THE WMD

       DOMAIN MANAGEMENT PROCESS TO ADDRESS WMD 

       THREATS AND VULNERABILITIES............................................11


WMD Domain ..................................................................................... 12

   Domain Management ...................................................................... 13

   Aspects of Comprehensive WMD Domain Management ........................ 14

Implementing a WMD Domain Management Approach............................. 16

   June 2008 Semi-Annual Program Review .......................................... 17

   September 2008 Pilot WMD Domain Assessment Program ................... 18

Identifying and Sharing WMD Information from Case Files and
Outreach Activity................................................................................ 20

   WMD Information from Investigation Case Files ................................. 20

   WMD Information from Other Special Agents Working with

   Non-FBI Groups ............................................................................. 23

Enhancing WMD Coordinator Oversight and Guidance ............................. 26

   Tracking WMD Coordinator Activities That Address Domain Needs ........ 26

   Measuring WMD Coordinator Performance on Domain Activities............ 28

Conclusion ......................................................................................... 29

Recommendations .............................................................................. 30

II.	   WMD COORDINATORS REQUIRE CLOSE COLLABORATION

       WITH DESIGNATED INTELLIGENCE ANALYSTS TO FACILITATE

       WMD INTELLIGENCE COLLECTION AND REPORTING ...............31


Overview of FBI Intelligence Cycle ........................................................ 31

WMD Coordinator and Intelligence Analyst Collaboration ......................... 34

  Need for Field Division WMD Intelligence Support ............................... 35

  Status of Intelligence Analyst Collaboration with WMD Coordinators ..... 36

  Ongoing Efforts to Designate Certain Intelligence Analyst Functions...... 38

Enhancing FBI WMD Intelligence Reporting Capability ............................. 40

  Intelligence Reporting Requirements................................................. 41

  Field Division Intelligence Report Production ...................................... 42

Supporting WMD Intelligence Analyst WMD Program Activities ................. 44

Conclusion ......................................................................................... 45

Recommendations .............................................................................. 46


III.	 THE FBI NEEDS TO ENSURE WMD COORDINATORS AND 

      INTELLIGENCE ANALYSTS CAN ADDRESS WMD DOMAIN

      NEEDS .....................................................................................47


Lack of Written WMD Coordinator Qualifications ..................................... 48

Identifying and Tracking WMD Training Requirements and Gaps............... 49

   Assessment of Preliminary WMD Training Tracking Activity .................. 49

   Training Readiness Management System ........................................... 50

WMD Coordinator Training Initiatives .................................................... 52

   WMD Certification Program .............................................................. 53

   Continuing Higher Education Program ............................................... 54

WMD Intelligence Analyst Training Efforts.............................................. 55

   Training Plans for WMD Intelligence Analysts ..................................... 56

Conclusion ......................................................................................... 57

Recommendations .............................................................................. 58


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS.......59


STATEMENT ON INTERNAL CONTROLS.............................................60


DEFINITIONS ..................................................................................61


ACRONYMS ......................................................................................62


APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY................63

APPENDIX II – OVERVIEW OF INVESTIGATIVE

  RESPONSIBILITIES OF THE FBI’S NATIONAL SECURITY

  BRANCH.......................................................................................70


APPENDIX III – THE WMD INTELLIGENCE REPORTING PROCESS ....72


APPENDIX IV – WMD CONTINUING HIGHER EDUCATION

  PROGRAM COURSE CATALOG.......................................................73


APPENDIX V – FBI RESPONSE TO THE DRAFT REPORT ....................75


APPENDIX VI – OIG ANALYSIS AND SUMMARY OF ACTIONS 

  NECESSARY TO CLOSE THE REPORT.............................................90

                                  INTRODUCTION

      Chemical, biological, radiological, and nuclear weapons, also known as
weapons of mass destruction (WMD), have the potential to kill thousands of
people in a single attack. WMDs include any explosives and incendiary
devices designed to cause death or serious bodily injury through the release,
dissemination, or impact of toxic or poisonous chemicals, disease organisms,
or radiation at a level dangerous to human life. If detonated or dispersed,
WMDs may also persist in the environment and render entire cities
uninhabitable for many years.

      Although concern over WMDs is not new, the disastrous consequences
that may result from a single WMD terrorist attack has spurred the federal
government to prepare for and respond to WMD threats. The specific roles
and responsibilities of various federal agencies to detect, mitigate, and
prevent WMD attacks are outlined in two national-level documents: the
National Response Framework (Framework) and the National
Implementation Plan to Combat the War on Terror (National Implementation
Plan). Together, these documents serve as a national WMD strategy to
coordinate how various agencies work together to prevent and respond to
WMD incidents.

      The Federal Bureau of Investigation (FBI) serves an important role in
addressing the threat of WMD, and is assigned as the lead federal agency for
investigating WMD crimes. 3

The National WMD Strategy

      In January 2008, the Department of Homeland Security issued the
National Response Framework to assign federal agencies specific
responsibilities for preparing and responding to hazardous events. The
Framework details the Attorney General’s lead responsibility to investigate
criminal and terrorist acts or threats and coordinate the activities of different
law enforcement agencies. It also requires that federal government
agencies, including the FBI, develop response plans, policies, and procedures
on how they will provide resources and coordinate and carry out their
response techniques. Under the Framework, agencies are also responsible
       3
          The Attorney General has lead authority to investigate acts of federal crimes,
including the use or attempted use of a WMD. See 28 U.S.C. § 533 (2008) and
18 U.S.C. § 2332(a) (2008). The Attorney General has delegated much of this investigative
authority to the FBI. 28 C.F.R. 0.85 (2008). The National Response Framework and the
National Implementation Plan do not alter any legally established responsibilities of the FBI
or of other federal agencies. Instead these guidelines outline how federal agencies should
work together to implement a broader strategy to detect, prevent, and deter WMD events.
                                             1

for ensuring that all threat information is reported to and shared between
different law enforcement organizations.

       The National Implementation Plan, which was drafted by the National
Counterterrorism Center in June 2006, defines the responsibilities of
different federal agencies involved with preventing and responding to
terrorist attacks.4 The strategy outlined in this plan relies on three essential
capabilities: (1) the ability to keep WMDs out of the hands of rogue nations
and terrorists, (2) the ability to enlist and prepare our allies to combat
terrorism, and (3) the ability to organize and prepare the United States to
sustain its fight against terrorism.5

      Several federal agencies have overlapping roles in controlling
hazardous substances and preventing and responding to terrorist attacks.
Recognizing that no single federal agency, regardless of its mission,
possesses all the expertise and information necessary to identify, mitigate,
and respond to all WMD events, the national WMD strategy delineates
specific agency roles and responsibilities. Exhibit 1 lists the major
responsibilities of agencies that play a pivotal role in this strategy.

           EXHIBIT 1: FEDERAL AGENCY WMD RESPONSIBILITIES

           Federal Agency                             Responsibility
                                 Responds to domestic air incidents involving WMDs.
     Department of Defense       Serves as the lead agency in international operations
                                 and nonproliferation efforts.
                                 Provides technical support on specialized assets,
                                 including nuclear and radiation threats. Maintains the
     Department of Energy
                                 Nuclear Emergency Support Team to assist other
                                 agency response and containment efforts.
                                 Coordinates domestic security activities, including
    Department of Homeland       developing and maintaining a national WMD exercise
           Security              program. Detects and warns of WMDs within the United
                                 States. Responds to domestic WMD incidents.
                                 Coordinates international WMD response, training
      Department of State
                                 efforts, and other activities.
                                 Investigates criminal and terrorist attempts to acquire
      Department of Justice      and use WMDs. Collects, manages, and transports
                                 WMD crime scene evidence.
  Source: OIG analysis of legislative and executive authorities

       4
         The National Counterterrorism Center is a component of the Office of the Director
of National Intelligence.
       5
        To integrate and synchronize national counterterrorism and counterproliferation
elements, the National Implementation Plan follows a strategic framework outlined in
Homeland Security Presidential Directive 15, Annex 1 (June 29, 2006).
                                             2

      To help effectuate the National Implementation Plan, federal agencies
also developed supporting plans outlining how they would perform their
antiterrorism roles. The Department of Justice has designated the FBI as
the primary lead for many of its WMD-related responsibilities outlined by the
National Implementation Plan.

FBI Efforts to Implement Its WMD Mission

      In October 2007, the FBI reported that it was investigating nearly
1,000 cases that involved WMD crimes, including attempted or actual WMD
possession, threats, and hoaxes. To prevent WMD attacks, the FBI opens
investigations to deter attempts of criminals and terrorists to obtain WMDs,
and if their acquisition cannot be prevented, identify and disrupt any
attempted WMD use. These cases require the FBI to use both its traditional
investigative functions and its analytical capabilities to identify potential
WMD suspects, targets, and other threats before they can coalesce and
result in an attack.

       As shown by Exhibit 2, FBI WMD activities involve headquarters
divisions, such as the WMD Directorate and the Directorate of Intelligence,
and field division personnel, including WMD Coordinators and Intelligence
Analysts on Field Intelligence Groups.




                                      3

EXHIBIT 2: KEY FBI GROUPS INVOLVED IN WMD DETECTION AND PREVENTION EFFORTS



    FBI
                                                               National Security Branch
    Headquarters

                             Counterintelligence        Counterterrorism                                         Directorate of
                                  Division                  Division                                              Intelligence


                                                                                       WMD
                                                                                    Directorate



                                                                                                                 Coordinates and
                                         Develops             Issues Guidance
                                                                                         Develops Training      Assesses National
                                      Countermeasures          and Procedures
                                                                                                                   Intelligence




    FBI
    Field
    Division         Suspicious                          WMD Coordinator                                        Field Intelligence
                      Incidents                                                                                       Group
                                                        (Designated Special Agent)




                              WMD Investigations        Outreach          Countermeasures            Training



                                              Detection and Prevention Activities

                            Central WMD groups                     Other pertinent FBI
           LEGEND:                                                                                      Critical WMD functions
                            and personnel                          groups

Source: OIG analysis of FBI guidelines
                                                                     4

       The WMD Directorate and its WMD Coordinators play a central role in
the FBI’s approach in addressing its WMD responsibilities. The WMD
Directorate works with other FBI headquarters divisions to develop WMD
program policies, training, and intelligence. 6 WMD Coordinators in the field
divisions conduct WMD investigations and perform outreach and awareness
training to those involved in handling WMD material throughout their
regions. WMD Coordinators also institute countermeasures designed to
prevent and detect WMD threats and attacks within their area of
responsibility or domain.

WMD Directorate

       Various WMD prevention and response efforts were once conducted by
different FBI investigative divisions. In July 2006, the FBI consolidated its
WMD-related activities into a single WMD Directorate within its then newly
formed National Security Branch.7

       Comprised primarily of Special Agents, Intelligence Analysts, program
managers, and other policy specialists, the WMD Directorate designs training
for employees of the FBI; other federal agencies; state and local law
enforcement organizations; and public health, industry, and academia
partners. The WMD Directorate also provides national-level WMD
intelligence support to other intelligence agencies and develops initiatives,
referred to as “countermeasures,” that help reveal, interrupt, or destabilize
terrorist efforts to use WMDs. Led by an Assistant Director, the WMD
Directorate includes three sections, as shown in Exhibit 3: Countermeasures
and Preparedness, Investigations and Operations, and Intelligence and
Analysis.




       6
          The FBI has established several distinct investigative programs at its headquarters
and field divisions. The FBI bases its investigative programs on criminal and national
security priorities such as counterterrorism, counterintelligence, cyber crime, violent crime,
organized crime, and WMD.
       7
          Designed to combine the intelligence, counterterrorism, and counterintelligence
capabilities of the FBI, the National Security Branch unifies the FBI’s counterterrorism-
related activities.


                                              5

                       EXHIBIT 3: THE WMD DIRECTORATE




                                         Assistant Director



                                         Deputy Assistant
                                             Director



                      Policy and
                   Planning Office




       Countermeasures and Preparedness                       Investigations and Operations
                   Section                                                Section




                                 Intelligence and Analysis Section*



                                           Note: The Intelligence and Analysis Section is also part of
                                                 the FBI's Directorate of Intelligence.

  Source: FBI

       The WMD Directorate’s Countermeasures and Preparedness Section
develops initiatives and investigative tools to identify and disrupt potential
WMD threats and attacks, prepares the FBI to respond to such events, and
initiates and participates in domestic and international preparedness
exercises. The Investigations and Operations Section includes the WMD
Operations Unit (Operations Unit) and the Counterproliferation Operations
Unit. The Operations Unit manages cases and daily threat calls and serves
as the WMD Directorate’s primary conduit to WMD Coordinators in the field
divisions while the Counterproliferation Operations Unit works with the
Counterintelligence and Counterterrorism Divisions to identify WMD links in
new and ongoing investigations.

      The Intelligence and Analysis Section is a Directorate of Intelligence
section embedded within the WMD Directorate. 8 Its Intelligence Analysts
       8
         The FBI’s Directorate of Intelligence manages all FBI intelligence activities. The
Directorate of Intelligence is responsible for ensuring that intelligence is identified, collected,
analyzed, and communicated in accordance with U.S. Intelligence Community standards.


                                                 6

identify threat patterns and sources and assess the tactics and capabilities of
investigative targets. This section also coordinates, shares, and produces
WMD intelligence products that focus on international and national-level
WMD threats, including proliferation and terrorism.

       WMD Coordinators

      The FBI relies on a designated Special Agent at each field division,
referred to as the WMD Coordinator, to implement a significant portion of its
WMD-related activities. WMD Coordinators have been a part of the FBI since
the mid-1990s when its WMD Operations Unit, which was then a part of the
Counterterrorism Division, asked each field division to appoint a Special
Agent to be a WMD Coordinator.

       Some field divisions have assigned additional FBI personnel to assist
their WMD Coordinator. For example, several field divisions have backup or
assistant WMD Coordinators who help with outreach and evidence gathering
tasks. Intelligence Analysts and technically trained Special Agents in the
field also provide analysis and tactical support on WMD investigations. In
addition, each field division may also have several other coordinators and
personnel that play a role in the field division’s WMD Program, including the
Hazardous Materials Response Team Leader, the Special Agent Bomb
Technician, the Domain Management Coordinator, the Counterproliferation
Coordinator, and the Infragard Coordinator. These employees often perform
outreach and community liaison tasks, which is also one of the key functions
of the WMD Coordinator.

       WMD Coordinator Responsibilities and Activities

       Initially, FBI field divisions treated the WMD Coordinator position as a
collateral duty, which entailed serving as a “point person” for suspicious
WMD incidents. Each field division also had wide discretion over who to
designate as the WMD Coordinator and what duties they were to perform.
Over time, however, the FBI WMD Operations Unit provided field divisions
with additional guidance and oversight in an effort to formalize the role of
the WMD Coordinator position in each field division.9 For example, in April
2008, the Operations Unit asked field divisions to designate WMD
Coordinators as a full-time duty due to the large volume of work they
managed. To encourage field divisions to designate a full-time WMD
Coordinator, the WMD Directorate offered many field divisions a


       9
          Besides the National Implementation Plan, specific National Security Presidential
Directives (NSPDs) and Homeland Security Presidential Directives (HSPDs) have clarified the
FBI’s role in WMD and other counterterrorism and intelligence collection efforts.

                                            7

headquarters-funded position to replace the one filled by the full-time WMD
Coordinator.

       The role of WMD Coordinators has also evolved over time to become
the field division’s “subject matter expert” on WMDs. In April 2008, the
WMD Directorate issued a memorandum detailing specific WMD Coordinator
responsibilities, as shown in Exhibit 4.

         EXHIBIT 4: WMD COORDINATOR RESPONSIBILITIES


      1. Conduct Outreach. Establish and maintain strong operational
         and intelligence-focused relationships with federal, state, and
         local counterparts, including private industry, academic
         institutions, and other entities involved in manufacturing or
         safeguarding WMDs or WMD delivery systems.

      2. Investigate WMD Crimes. Conduct and assist in investigations
         of WMD crimes and subjects, including other types of criminal and
         terrorism cases that involve WMDs.

      3. Implement Countermeasures. Implement initiatives designed
         by FBI headquarters, specifically the WMD Directorate, to detect
         and deter specific WMD threats and vulnerabilities. Develop and
         test ways to reveal and mitigate WMD risks and report results to
         FBI headquarters.

      4. Provide Training. Teach WMD prevention, awareness, and
         detection techniques to pertinent representatives in the field
         division, both within the FBI and the public community.

      5. Manage Incident Response. Serve as the subject matter
         expert in areas of chemical, biological, radiological, and nuclear
         (CBRN) incidents. Apply CBRN knowledge to assess and address
         WMD incidents and threats reported to the field division.

    Source: FBI WMD Directorate

      In addition to the responsibilities outlined above, WMD Coordinators
must also know about and be up-to-date on issues pertaining to WMDs that
are in their field division’s geographic area of responsibility. Such issues
include: (1) the sources for WMD materials within their geographic area of
responsibility; (2) how and where hazardous materials are transported;
(3) where hazardous materials are stored; (4) the security vulnerabilities of
the locations holding hazardous materials; and (5) the locations of various


                                         8

companies or groups including research reactors, medical waste producers,
chemical facilities, and biological laboratories.

      WMD Coordinators are also the public face of the FBI’s WMD program
within each field division and are responsible for liaison activities such as:

       •	 Training. WMD Coordinators plan, host, and attend training
          sessions for groups within their field division’s area of responsibility,
          ranging from informal discussions with manufacturers and industry
          leaders to multi-day field division exercises with local first
          responders that generate “after-action” reports detailing lessons
          learned.

       •	 Outreach. WMD Coordinators routinely work with other agencies
          and organizations such as the Department of Energy, the
          Department of Homeland Security, and state and local emergency
          and public health departments. Outreach performed by WMD
          Coordinators also encapsulates a number of different activities,
          ranging from making telephone calls to attending local Department
          of Homeland Security Biowatch Program meetings.10 Additionally,
          WMD Coordinators meet with academic groups and scientific
          institutions to obtain information about potential WMD hazards and
          share awareness about the FBI’s role in investigating WMD crimes.

       •	 Countermeasures. WMD Coordinators also deploy countermeasure
          initiatives developed by the WMD Directorate to address specific
          national threats and concerns. These countermeasures range from
          simple “meet and greets” at hardware stores to a comprehensive
          evaluation of security measures at small airfields across the United
          States.

       As a result of their work with non-FBI groups, WMD Coordinators
constitute an important source of intelligence on threats and vulnerabilities.
Several FBI officials noted that WMD Coordinators often work with their field
division’s counterterrorism and counterintelligence squads to provide insight
and assistance in identifying WMD links in new and ongoing cases.




       10
           The Department of Homeland Security’s Biowatch Program is an early warning
system that can detect trace amounts of biological materials that can be the result of a
terrorist attack. A Biowatch Program is administered in several major cities.


                                             9

OIG Audit Approach

      The Department of Justice Office of the Inspector General (OIG)
conducted this audit to: (1) assess how the FBI’s WMD Coordinators should
plan and perform activities that address prioritized WMD threats and
vulnerabilities, (2) evaluate the FBI’s integration of WMD Coordinator
functions with field division intelligence capabilities and practices, and (3)
review FBI efforts to ensure that WMD Coordinators and others that work on
the WMD program have the skills and abilities necessary to detect and
prevent WMD attacks. To accomplish these objectives, we:

   •	 examined how the FBI supports and manages WMD Coordinators so
      that they can address the most pressing WMD threats and
      vulnerabilities in their field divisions,

   •	 reviewed how WMD Coordinators interact with Intelligence Analysts,
      and

   •	 assessed whether the FBI provided adequate guidance on what skills
      and abilities WMD Coordinators should have and reviewed WMD
      Coordinator and Intelligence Analyst training opportunities and
      oversight to determine whether the FBI ensures that these personnel
      can perform essential WMD functions.

       We conducted audit work at FBI headquarters in Washington, D.C.,
and at eight FBI field divisions: Houston, Texas; Oklahoma City, Oklahoma;
Baltimore, Maryland; Washington, D.C.; New York, New York; Phoenix,
Arizona; Tampa, Florida; and Los Angeles, California. We selected these
field divisions based on a methodology that considered various aspects of
field division WMD activities, intelligence and operational capabilities, and
geographic size and location. In addition, we examined WMD activity
reports from each field division and reviewed intelligence reports, strategic
plans, operational guides, and FBI directives. We also attended and
evaluated an FBI WMD Coordinator training conference provided by the WMD
Directorate in Albuquerque, New Mexico.

     The Findings and Recommendations section details the audit results.
Appendix I includes additional details on the audit objectives, scope, and
methodology.




                                      10

               FINDINGS AND RECOMMENDATIONS


I.	   WMD COORDINATORS NEED TO PARTICIPATE IN THE WMD
      DOMAIN MANAGEMENT PROCESS TO ADDRESS WMD THREATS
      AND VULNERABILITIES

      Despite serving as their field division WMD subject matter
      experts, WMD Coordinators do not participate in the domain
      assessments that the FBI has begun using to identify and
      prioritize the WMD threats and vulnerabilities facing each of its
      56 field divisions. Instead, the FBI has generally relied only on
      its Intelligence Analysts to assess WMD domains, which we
      believe may lead to incomplete domain assessments that do not
      fully consider important domain entity information obtained and
      known by WMD Coordinators. The FBI also does not have
      standard procedures for its field divisions to ensure that WMD
      case information and liaison contacts are identified and shared
      with WMD Coordinators. Further, the FBI needs to (1) enhance
      its WMD Coordinator oversight efforts and (2) improve
      performance evaluation criteria to ensure WMD Coordinators
      perform activities that address prioritized WMD threats and
      vulnerabilities.

      In fulfilling the FBI’s mission to detect and prevent WMD attacks, WMD
Coordinators serve as their field division’s primary representative to public-
and private-sector groups that trade and develop material that can be used
to manufacture WMDs. As the field division subject matter expert on WMD
issues, WMD Coordinators need to work with other groups to identify and
help prioritize the most serious WMD threats and vulnerabilities facing their
geographic regions.

      Recognizing a need for a consistent mechanism that field divisions
could use to plan and perform activities geared toward preventing terrorist
attacks, in June 2008 the FBI began to apply the “domain management”
concept to guide and evaluate its major programs. Domain management is
the process by which field division investigative programs continually collect
and analyze information within their respective area of responsibility to
obtain a strategic understanding of their most pressing threats and
vulnerabilities. Once a program’s threats and vulnerabilities are prioritized,
Special Agents and other personnel working on the investigative program
should accomplish activities that address the prioritized concerns and
weaknesses. By working to detect and prevent specific types of crimes



                                      11

before they occur, effective domain management should help the FBI in its
efforts to prevent a WMD attack. 11

WMD Domain

       The FBI’s WMD domain constitutes a broad range of elements within a
field division’s area of responsibility. These elements, referred to as “domain
entities,” include anything that has the potential to create, transport, or use
WMDs. Domain entities may also be any building, individual, or location that
terrorists could target with a WMD attack. Exhibit 5 provides examples of
various entities constituting a field division’s WMD domain.




       11
            Throughout the audit, the methods by which field divisions evaluated and
performed their WMD program activities changed in response to the FBI’s implementation of
domain management. Recognizing these changes, we adjusted our audit objectives during
our review to ensure that we assessed how the FBI’s application of domain management to
field division WMD programs would affect the WMD Coordinator’s role. We then used the
results of our fieldwork to determine what we believe are best practices that the FBI needs
to implement to sustain a comprehensive WMD domain management process at its field
divisions. Because the FBI only began to apply the domain concept to its field division WMD
programs during our audit, we could not evaluate the results of its implementation of the
domain management process.

                                            12

                     EXHIBIT 5: EXAMPLES OF WMD DOMAIN ENTITIES



                                                              Select Agent Labs    Chemical Facilities




                              Parks              Radiation Sources        Research Labs         Nuclear Facilities      Sport Events



                                                                                                                         395    9100

  News and Events        Shopping Malls               Farms                                          Prisons         Roads & Highways      Population Centers




  Metropolitan Areas        Residents
                                                                        WMD                                          Manufacturing Firms         Hospitals



                                                                       Domain
   Financial Firms     Military Installations                                                                         Communications         First Responders




       Schools         Houses of Worship        Transportation Hubs                               Intelligence           Landmarks         Construction Projects




                         Food Processing        Suspicious Incidents      Investigations      JTTF & Local Police     Subway Systems




                                                  Beauty Salons             Outreach           Criminal Elements


Source: OIG depiction of examples of WMD domain entities as conveyed by WMD
        Directorate officials, WMD Coordinators, and other FBI documents

       As shown by Exhibit 5, the WMD domain encompasses the people,
places, and things within a field division’s geographic area of responsibility.
It includes various types of FBI and non-FBI entities. FBI WMD domain
entities include prior and ongoing investigations, sources, reports of
suspicious incidents and threats, and intelligence. Non-FBI WMD domain
entities include both public and private sector interests such as
transportation hubs, nuclear power plants, laboratories, hospitals,
manufacturing firms, and shopping malls. Because field divisions cover
distinct geographical areas and these areas contain different domain entities,
each field division’s WMD domain is unique.

Domain Management

       A field division’s WMD domain can include thousands – if not millions –
of different entities. It is therefore not feasible for field divisions to assess
the threats and vulnerabilities presented by all domain entities
simultaneously. The WMD domain management process requires that field
divisions acquire a strategic understanding of the most serious threats and

                                                                                    13
vulnerabilities of their field division’s WMD domain. This strategic
understanding, referred to as “domain awareness,” requires collecting and
assessing information about WMD domain entities. The actual identification,
evaluation, and ranking of domain threats and vulnerabilities is referred to
as the “domain assessment.”

       Because WMD domain awareness needs to reflect the constantly
changing state of the entities within the WMD domain, field divisions need to
perform domain assessments continuously. As their field division’s WMD
subject matter expert, WMD Coordinators play a critical role in the
continuous WMD domain management process. Their work with WMD
domain entities – through conducting outreach, providing training, and
instituting countermeasures – provides an important source of information
that should be considered during domain assessments.

Aspects of Comprehensive WMD Domain Management

       According to our review of FBI program documents, “true domain
awareness” is achieved once a field division targets its investigations and
resources to address the threats and vulnerabilities prioritized by domain
assessments. Without true domain awareness, the domain management
process itself does not ensure that WMD Coordinators and other field division
personnel actually perform work that detects and mitigates prioritized
threats and vulnerabilities. For instance, consider that a field division’s WMD
domain assessment revealed a nuclear power plant lacks adequate
safeguards over its fuel rod storage tank. In this example, for the field
division to achieve true domain awareness the field division would need to
ensure that its WMD Coordinator both planned and performed specific
activities to address the domain vulnerability of weak fuel rod security. Such
activities may include meeting with plant representatives to discuss their
security needs or providing plant managers with WMD awareness training.
Conversely, if the assessment revealed a potential attack against a nuclear
power plant, to achieve true domain awareness the WMD Coordinator would
need to perform specific activities geared toward mitigating that threat.
These activities may include beginning investigations on the potential
attackers, increasing the plant’s security, and notifying local law
enforcement of the threat made against the plant. In both examples, the
results of the WMD Coordinator’s efforts would need to be tracked so that
subsequent domain assessments result in accurate domain awareness.

      These examples illustrate that a comprehensive WMD domain
management process needs to do much more than identify and prioritize
threats and vulnerabilities before “true domain awareness” may be achieved.
Specifically for the FBI’s WMD efforts, domain management should be

                                      14

 viewed as a continual process for understanding the dynamic nature of WMD
 threats and vulnerabilities. Exhibit 6 illustrates how domain assessments
 and activities could work together on a field division WMD domain
 management process that detects and prevents WMD attacks.

        EXHIBIT 6: DEPICTION OF A COMPREHENSIVE WMD DOMAIN
                        MANAGEMENT PROCESS


                                                                              Identify and Share
           START                                                               WMD Information
                                                                           WMD C oordinator and other
                                                                            Special Agents share WMD
                                                                           information from cases and
                                                                            work with non-FBI groups


    Field Division Selects
        Full-Time WMD
         Coordinator                                                       RESULT:
      Dedicated to conduct                                              "TRUE DOMAIN
  outreach, training, and other
      WMD program duties                                                 AWARENESS"

                                       Reassess Domain            WMD Coordinator
                                    WMD C oordinator works        conducts activities to
                                  with Intelligence Analysts to
                                   evaluate and re-prioritize     address prioritized threats               Perform Activities
       Develop Domain              domain vulnerabilities and     and vulnerabilities                    WMD C oordinator conducts
           Guidance                 risks based on updated                                              outreach, training, and other
   FBI develops standardized           domain awareness                                                  duties with domain entities
   guidance for field divisions                                                                           and gathers information
    to use to obtain strategic                                    Field division works to                 about the WMD domain
   awareness of WMD threats                                       continuously update WMD
        and vulnerabilities
                                                                  domain awareness



    Conduct Initial Domain                                                    Plan Activities
          Assessment                                                   WMD C oordinator programs
      Identify and evaluate                                            outreach, training, and other
    domain entities to obtain                                            duties based on domain
        domain awareness                                                        awareness
   (strategic understanding of
   threats and vulnerabilities)




                  Integrated Analytical Support From Field Intelligence Groups


           Adequate WMD Coordinator and Intelligence Analyst WMD Training

Source: OIG depiction of a comprehensive field division WMD domain management process
        that results in “true domain awareness”

        Because domain management is driven by how field divisions obtain
 and process information, we believe that WMD Coordinators and others
 working in the WMD domain need to: (1) be supported by and integrated
 with field division analytical capabilities, such as the Field Intelligence Group,

                                                                  15
so that information on threats and vulnerabilities can be evaluated quickly
and accurately; and (2) receive sufficient training so that they can
adequately assess WMD threats and respond to WMD incidents.12

      With sufficient intelligence and training support, WMD domain
management applies updated domain assessment results to plan and
perform activities that mitigate prioritized threats and vulnerabilities and
acquire new WMD domain information that should then be evaluated by the
next assessment.

Implementing a WMD Domain Management Approach

        Before the WMD Directorate began applying domain management to
its field division WMD programs, WMD Coordinators largely planned and
conducted outreach and training based on their perceptions of individual
field division risks.13 Without any standardized domain assessments, many
WMD Coordinator perceptions of risk were shaped by different variables,
including:

       •	 ongoing and prior casework,

       •	 established contacts with first responders and major industry
          partners,

       •	 field division management concerns,

       •	 high-profile special events occurring in their field division, and

       •	 episodically reported threats and weaknesses.

      Some WMD Coordinators spent considerable time conducting activities
that addressed their perceptions of risk. For example, one WMD Coordinator

       12
          Finding II discusses FBI efforts to realign its Field Intelligence Groups and why
WMD Coordinators need to work closely with these analytical groups to facilitate information
sharing and intelligence reporting. Finding III assesses the training provided to WMD
Coordinators and Intelligence Analysts.
       13
           As discussed in the Introduction, WMD Coordinators also implement
countermeasures to address WMD specific threats and vulnerabilities. However, many such
countermeasures have been developed by the WMD Directorate and are based on detecting
and mitigating threats and vulnerabilities based on international and national-level analysis
and trend forecasting. WMD Coordinators are assigned to perform these countermeasures
by the WMD Directorate. As such, we do not consider countermeasures to be specific,
domain-based activities that the WMD Coordinator can plan and perform to address
prioritized threats and vulnerabilities in their field divisions.

                                             16

was performing a substantial amount of outreach and WMD awareness
training with livestock producers. Another WMD Coordinator told us they
spent significant time interacting with representatives from oil refineries.
Although these groups represented a major industry in each field division’s
respective area of responsibility, WMD Coordinator efforts with these
industries were based primarily on the WMD Coordinator’s perception of risk
that a WMD attack might occur, or the detrimental effect that such an attack
would have on these industries and the WMD Coordinator’s field division.
For example, livestock may be purposefully contaminated with pathogens
that would result in a poisoned food supply and endanger the health of
millions. Similarly, chemicals stored by oil companies could explode and
create plumes of toxic gas and poison the environment.

       Regardless of the potential impact a WMD attack on these industries
might have, without a domain assessment WMD Coordinators cannot ensure
that their outreach and training efforts actually addressed the most critical
threats and vulnerabilities within their field division’s area of responsibility.
Recognizing this weakness, the FBI has begun to take steps to implement a
comprehensive WMD domain management process. As discussed
previously, the WMD Directorate has asked field divisions to designate full-
time WMD Coordinators, and during our audit has also begun:
(1) introducing and detailing what domain awareness is to its field divisions
and (2) conducting initial domain assessments using field division
Intelligence Analysts.

June 2008 Semi-Annual Program Review

      The FBI began applying domain management to field division WMD
programs in June 2008 as part of its WMD Semi-Annual Program Review.14
The WMD Directorate, working with the FBI’s Inspection Division, formulated
the questions and metrics that the WMD Semi-Annual Program Review
needed to capture from each field division. Field divisions also received a
form on which it was to report this information to FBI headquarters.

      The WMD Semi-Annual Program Review outlined the major aspects of
the domain management process and emphasized the importance of

       14
          The WMD Semi-Annual Program Review was part of a larger FBI initiative that
began in 2008 to replace the FBI’s traditional 3-year field division inspection cycle with a
performance measurement-based assessment process. The first FBI-wide Semi-Annual
Program Review was started in June 2008 by the FBI Inspection Division. It gathered and
evaluated information from major FBI investigative programs. WMD Semi-Annual Program
Review results were received by FBI headquarters in August 2008. The review covered the
period beginning October 1, 2007, and ending June 30, 2008.


                                             17

continuously performing domain assessments. It also instructed field
divisions to perform initial domain assessments based on the threats and
vulnerabilities indicated by ongoing WMD program activities and
investigative priorities. However, the WMD Semi-Annual Program Review
did not detail how field divisions or their WMD Coordinators and Intelligence
Analysts should determine and prioritize WMD domain threats and
vulnerabilities. The WMD Semi-Annual Program Review instead had each
field division: (1) identify its “top 10” WMD threats, (2) assess its
intelligence support capability, and (3) describe various training and
outreach activities performed by the WMD Coordinator.

       Some WMD Coordinators responsible for compiling this information
told us that they had difficulty identifying their top threats and assessing
their intelligence support capability because no one told them how this
information should be compiled or assessed. WMD Coordinators also told us
they did not know how to perform an initial domain assessment that the
Semi-Annual Program Review indicated was required to begin managing the
WMD domain. Without detailed instructions, some WMD Coordinators
reported as their top 10 threats those that had been identified by previous
ad hoc threat assessments, while others contacted different field divisions or
WMD Directorate officials for assistance in identifying threats.

       Without clear guidance, field divisions and their WMD Coordinators
were unable to identify WMD threats and vulnerabilities consistently if at all.
For example, some field divisions listed 10 specific WMD threats that
included the location of nuclear reactors, the names of particular biological
and chemical manufacturers, WMD research facilities, and chemical weapons
storage sites. Other field division lists did not include any such details. One
field division listed broad threats such as “chemicals” or “biological agents.”
Three field divisions did not report any WMD threats.

September 2008 Pilot WMD Domain Assessment Program

      The inconsistent June 2008 Semi-Annual Program Review results
demonstrated that field divisions were not applying uniform approaches to
assess their WMD domain threats and vulnerabilities. To address this
problem, the FBI directed a team of Intelligence Analysts to develop a pilot
WMD domain assessment program with specific steps that field divisions
should follow to conduct a domain assessment.

      In our opinion, the steps developed by the pilot WMD domain
assessment program provide a useful and comprehensive initial framework
by which field divisions can identify and prioritize domain threats and
vulnerabilities. The assessment steps require that field divisions identify

                                      18

specific domain entities and listed examples of some non-obvious WMD
domain entities that should be considered while evaluating domain threats
and vulnerabilities. Examples of such entities include commercial centers,
companies receiving chemical and biological research grants and contracts,
and colleges and universities.

       Once the template WMD domain assessment program was compiled by
the end of September 2008, the FBI began using it to assess each field
division’s domain for the subsequent WMD Semi-Annual Program Review.
To prepare each field division for the next round of review, field divisions
sent Intelligence Analysts to FBI headquarters to work with the WMD
Directorate and the Directorate of Intelligence to complete their respective
field division’s initial WMD domain assessment. At FBI headquarters, these
analysts identified case information and used intelligence reports to compile
the initial assessment.

       However, Intelligence Analysts were the only field division
representatives that participated directly in the WMD domain assessment
performed at FBI headquarters. While intelligence plays a pivotal role in
identifying WMD domain threats and vulnerabilities, intelligence reports are
not the only source of information that domain assessments need to gauge
WMD domain threats and vulnerabilities adequately. Our fieldwork revealed
that WMD Coordinators across different field divisions maintained different
working relationships with Intelligence Analysts. Some WMD Coordinators
worked closely with designated Intelligence Analysts and shared information
about WMD threats with them regularly. WMD Coordinators at other field
divisions did not routinely interact with Intelligence Analysts.

       However, even in cases where WMD Coordinators have a close working
relationship with an Intelligence Analyst, that Intelligence Analyst may not
be the same one that conducts the WMD domain assessment. Therefore, if
WMD Coordinators do not participate in some direct way on the assessment,
important information stemming from their work on WMD investigations,
outreach, and training may not be evaluated by the analyst conducting the
assessment. As a result, the threats and vulnerabilities identified by a
domain assessment conducted only by Intelligence Analysts may not capture
the threats and vulnerabilities offered by some domain entities of which the
WMD Coordinator has knowledge. These domain assessments therefore risk
resulting in incomplete domain awareness that does not adequately prioritize
all actual WMD threats and vulnerabilities. Without ensuring that all
pertinent domain entities are considered in the WMD domain assessment,
the FBI does not do all it can to help its WMD Coordinators detect and
prevent the most probable WMD attacks.


                                     19

       Therefore, we recommend that the FBI ensure that a WMD Coordinator
or a designated assistant WMD Coordinator participates in their field
division’s WMD domain assessment. Such participation should offer WMD
Coordinators or their designees an opportunity to provide their view of
pressing WMD matters, report on the status and results of their outreach
and training efforts, and exchange pertinent WMD information with
Intelligence Analysts also working on the domain assessment.

Identifying and Sharing WMD Information from Case Files and
Outreach Activity

      To participate meaningfully in the domain management process, WMD
Coordinators need to know what information the FBI already has about the
WMD domain. FBI cases and outreach activities can serve as major
operational sources of WMD domain information. Case files can include
background material on subjects that possess WMD capabilities and
information on terrorist or other criminal enterprises that have been
attempting to acquire WMDs. Additionally, some field divisions have
assigned personnel other than WMD Coordinators to work with non-FBI
agencies and groups, such as chemical and technology development groups,
which may also serve as WMD domain entities. Consequently, we believe it
is important that the FBI ensure that field divisions identify and share WMD
domain information available from case files and other Special Agents with
the WMD Coordinator.

WMD Information from Investigation Case Files

      Both new and ongoing investigations are important WMD domain
information sources. Because field divisions manage thousands of ongoing
cases and are continually beginning new investigations, one aspect of a
comprehensive domain management process should include identifying
potential WMD connections or links in the constantly changing FBI
investigation universe. However, because of the way the FBI classifies and
administers its cases, more effort is required to identify and share WMD
connections in cases that have not been classified as WMD investigations.15




     15
          Appendix II contains additional details on FBI’s case classification system.

                                             20
      The WMD Directorate and WMD Coordinators in the field divisions
manage and participate on cases classified as “WMD investigations.” WMD
Coordinators play a direct role in these investigations, which is summarized
in Exhibit 7. As a result, WMD Coordinators have access to pertinent
information derived from cases classified as WMD investigations. The WMD
Coordinator can then assess such case information while managing the WMD
domain.

     EXHIBIT 7: SUMMARY OF TYPES OF WMD INVESTIGATIONS

    Domestic Police Cooperation. Efforts to assist local and state law
    enforcement agencies to target and mitigate WMD threats and
    vulnerabilities.

    Atomic Energy Act Violations. The Atomic Energy Act guides the
    civilian and military development, access, and use of nuclear materials,
    called restricted data. These cases investigate alleged or suspected
    communication, receipt, or tampering of restricted data.

    Other Federal WMD Violations. Investigating the actual or attempted
    use, possession, transfer, production, or transportation of chemical,
    biological, radiological, and other types of devices under 18 U.S.C. §
    2332(a).

    Counterproliferation. These cases include efforts to proactively
    monitor, detect, and prevent malicious subjects from even acquiring
    WMDs or mitigating the effects of a WMD event.

    Preparedness. Activities to enhance how the FBI and other domain
    entities respond to a WMD or other hazardous event.
   Source: OIG analysis of WMD-categorized FBI investigations

       FBI divisions also conduct other types of cases that can potentially
include WMD connections even though they are not classified as “WMD
cases.” For example, the Counterterrorism Division manages domestic and
international terrorism cases. Some of these cases may include suspects or
targets that have the ability, desire, or means to acquire and deploy a WMD
device. Because WMD Coordinators do not participate directly on these
investigations, the Counterterrorism Division needs to notify the WMD
Coordinator directly – or indirectly via the WMD Directorate – of a WMD link
in its cases so the WMD Coordinator can assess and address potential WMD
vulnerabilities or risks stemming from the connection.




                                         21

      We found that field division counterterrorism squads have periodically
provided information on WMD connections in their investigations to WMD
Coordinators. In addition to identifying WMD connections in ongoing cases,
some smaller field divisions have begun notifying WMD Coordinators
whenever they begin a new counterterrorism case. However, field divisions
have not established standard procedures to ensure that pertinent case
information about WMDs is identified and then shared with WMD
Coordinators.

       Without systemic efforts to identify and share WMD connections in
cases, WMD Coordinators may not be aware of all the entities within their
WMD domains. This lack of information can affect the quality of the WMD
domain assessment and WMD Coordinator’s ability to prioritize activities that
address the most serious threats and vulnerabilities. As part of its domain
assessment initiative, during our audit the WMD Directorate recognized this
deficiency and had field division Intelligence Analysts begin “scrubbing,” or
comprehensively reviewing, selected cases to identify WMD links. Although
this effort may be able to identify WMD connections in prior or ongoing cases
at the field division level, such activities should be periodically performed to
ensure that domain assessments timely consider WMD connections that arise
from new and updated case information.

       During the audit, the WMD Directorate began working with the FBI’s
Counterterrorism Division to identify WMD connections in international
terrorism cases. This ongoing effort includes dedicating six WMD Directorate
personnel to the Counterterrorism Division’s International Terrorism
Operations Sections. In addition, the WMD Directorate has also worked with
the Counterterrorism Division to create case file templates for Special Agents
to consider when they conduct their investigations in domestic and
international terrorism cases. According to Directorate personnel, the
templates will help remind Special Agents of issues they may encounter that
indicate a WMD connection. For example, the proposed template will include
background on the types of academic degrees required to produce WMDs.
Special Agents can then use the case file template as a reference source to
identify potential WMD links in their investigations and as a reminder to refer
this information to the WMD Coordinator. 16




       16
            We also found that some field divisions, namely the Houston and Oklahoma City
field divisions, have begun using a similar case file template approach on their own in an
attempt to identify potential WMD connections within their cases.


                                            22

          The Intelligence Analyst case review and the WMD Directorate
  initiatives with the Counterterrorism Division are important but preliminary
  steps that the FBI has undertaken to identify and share WMD connections in
  its new and ongoing investigations. The FBI still needs to ensure that WMD
  connection checks occur regularly to reveal relevant developments or
  changes in cases involving WMDs. These connections need to then be
  provided to the WMD Coordinator so they can be included and evaluated by
  the domain assessment. Therefore, we recommend that the FBI develop
  procedures to ensure that field divisions regularly: (1) review cases for
  WMD connections, and (2) share pertinent case information with appropriate
  personnel so it can be evaluated during WMD domain assessments.

  WMD Information from Other Special Agents Working With Non-FBI Groups

        In addition to a WMD Coordinator, each field division has designated
  Special Agents who routinely interact with non-FBI agencies and groups to
  support certain aspects of their respective FBI program activities, as shown
  in Exhibit 8. In some cases, the non-FBI groups that these agents meet with
  are also WMD entities and therefore are integral parts of a field division’s
  WMD domain.

      EXHIBIT 8: OTHER FIELD DIVISION PERSONNEL PERFORMING

                             OUTREACH


Designated Special       Primary Outside Groups
  Agent Position                Targeted                     Primary Collaboration Goals
                                                       Obtain a “big picture” perspective of
                                                       counterproliferation trends or threats,
Counterproliferation    Businesses, Export Violation   inform non-FBI assets on what to be
Coordinator             Operations Centers             prepared for on a day-to-day basis, and
                                                       identify possible counterproliferation
                                                       methods and issues.
                        Academic Institutions and      Cooperate with financial and business
Counterintelligence     Private Industries,            sector to obtain and share sensitive
Domain Coordinators     especially financial and       information and data that could affect
                        government contractors         their operations and businesses.
Hazardous Material                                     Increase the awareness of hazardous
(HAZMAT) Team           Downrange Operators            materials and ensure proper evidence
Leader                                                 collection and handling of evidence.
                        State and Local Law
Special Agent Bomb                                     Identify, respond to, and render safe
                        Enforcement Agencies and
Technician                                             explosive devices.
                        Emergency Responders
Joint Terrorism Task                                    Share intelligence and other national
                       State and Local Law
Force (JTTF)                                            security information with other law
                       Enforcement Agencies
Coordinator                                             enforcement groups.
Source: OIG analysis of field division coordinator activities and responsibilities



                                               23

       The FBI is also involved in a wide array of industrial, scientific, and
academic working groups, ranging from small regional banking associations
to large international chemical research consortiums. To facilitate this
involvement, the FBI assigns agents and analysts to attend working group
meetings and speak to working group members. While performing this
work, FBI personnel establish contacts and meet with representatives from
multiple companies, research laboratories, and universities – all of which
again are entities within the WMD domain.

       We discussed with WMD Coordinators the type of information that
these Special Agents can acquire from working with outside groups. A
significant amount of information related to domain entities that otherwise
would not be readily available can be obtained from this work, including the
following:

      •	   the organizational structure and key leaders of the group;

      •	   contact telephone numbers and e-mail addresses of group
           officials, and other contact information that may be needed in an
           emergency;

      •	   observational notes, such as whether the outside group employs
           rigorous security procedures or safeguards potentially hazardous
           materials;

      •	   whether the outside groups are aware of the FBI’s role in
           detecting and mitigating WMD events; and

      •	   whether members of the outside group have been receptive to or
           cooperative with FBI outreach efforts.

       In view of the nature of information that can be obtained, FBI
personnel interacting routinely with non-FBI groups that are WMD domain
entities constitute important sources of WMD domain information.
Nevertheless, our audit did not identify any field division that clearly
specified how WMD Coordinators and other personnel who routinely worked
with non-FBI organizations and groups should share information. In fact,
some WMD Coordinators said that they did not share information on their
liaison contacts with other Special Agents and, in turn, other Special Agents
did not share such information with them. Some WMD Coordinators also
stated that they were reluctant to share liaison contact information because
they wanted to remain their field division’s primary point of contact with
non-FBI groups. As a result, WMD Coordinators maintained their outside

                                      24

contact lists on their cell phones, Blackberry devices, and laptops, and did
not always keep updated paper copies and make this information readily
available to other field division personnel.

       The lack of rigorous information sharing between FBI personnel
working with outside groups means that WMD Coordinators may not obtain
all the information the FBI possesses on WMD domain entities. In addition
to affecting the ability of the WMD Coordinator to plan and prioritize their
WMD domain activities, the lack of information sharing may affect the
overall ability of the field division to respond to a WMD emergency. For
example, if WMD Coordinators do not provide their field divisions with copies
of their contact records prior to leaving the office, field divisions may not be
able to contact quickly the non-FBI individuals or groups that had worked
with the WMD Coordinator to begin investigating the threat.

       We found that the lack of information sharing also resulted in different
FBI personnel contacting the same groups for similar reasons. In these
cases, FBI personnel did not know that another FBI official was already
working with the outside company or group – which ended up confusing
outside contacts. In an effort to address these occurrences and improve the
efficiency of outreach efforts, the Counterintelligence Division uses a Domain
Liaison Knowledgebase for its field division squads to use. The database
allows counterintelligence agents and analysts to record, track, and share
points of contact and other outreach-related information statistics.

      In late 2008, FBI intelligence officials began working with the
Counterintelligence Division to expand the use of the Domain Liaison
Knowledgebase with other FBI divisions, including the WMD Directorate and
its WMD Coordinators. Once fully implemented, we believe that the
database will help prevent duplication of effort among field division
personnel who work with outside groups. We recommend that the FBI
continue its efforts to enhance the sharing of WMD domain entity
information acquired by personnel working with outside groups. In our
opinion, these efforts should: (1) identify the personnel who regularly work
with non-FBI groups that are WMD domain entities; and (2) require that
these personnel and the WMD Coordinator exchange pertinent WMD domain
entity information using the Domain Liaison Knowledgebase.




                                      25

Enhancing WMD Coordinator Oversight and Guidance

       A comprehensive WMD domain management process requires that
WMD Coordinators use domain awareness to plan and perform activities that
address prioritized threats and vulnerabilities. As discussed previously, the
WMD domain includes many entities, such as hazardous chemical facilities,
manufacturing firms, and nuclear power plants. In addition, domain entities
also involve “lone wolves” or rogue or extremist individuals threatening to
carry out WMD attacks. Because WMD Coordinators must address both
known and unknown domain threats and vulnerabilities, we believe they
require significant oversight. The following sections provide two examples of
how the FBI can increase WMD Coordinator oversight and guidance to help
them work within the domain management process to prevent WMD attacks.

Tracking WMD Coordinator Activities That Address Domain Needs

       Before the advent of the domain management process, WMD
Coordinators were largely planning outreach and training efforts based on
perceived risks of a WMD attack. Because there were no consistent and up­
to-date assessments of threats and vulnerabilities facing their entire field
division, WMD Coordinators had limited means to identify these WMD risks
and plan activities that addressed them. Instead, many WMD Coordinators
we spoke to relied on already-established contacts and suggestions from
other field division WMD Coordinators to determine what activities they could
perform.

       Considering the various methods WMD Coordinators used to identify
and schedule their activities in the absence of domain management
guidance, we believe that, under a domain management process, WMD
Coordinators need to receive guidance on how they should plan and conduct
activities. While the pilot WMD domain assessment program we described
earlier has provided some needed written guidance for field divisions to
uniformly assess WMD threats and vulnerabilities, we concluded that the FBI
needs to increase its overall oversight and tracking of WMD Coordinator
activities.

       The WMD Directorate is in a unique position to provide additional
oversight to WMD Coordinators at each field division. It has worked with
field divisions on their initial domain assessment and already receives a list
of each field division’s top vulnerabilities and threats via the WMD program
Semi-Annual Program Review. In addition, the WMD Directorate receives
summaries of WMD Coordinator activities because WMD Coordinators have
been required to report periodically their field division activities using a
standard FBI statistical accomplishment report form, which provides a blank

                                      26

area that WMD Coordinators use to describe their work performed, such as
training and outreach. 17

      To increase WMD Coordinator oversight, we believe the WMD
Directorate can use the Semi-Annual Program Reviews and activity reports
to obtain and track the following information for each WMD Coordinator:

       •	 the activities WMD Coordinators are performing in their field
          divisions,

       •	 whether WMD Coordinator activities are planned to address a
          specific and prioritized domain threat and vulnerability, and

       •	 whether these activities, once they were performed, actually
          addressed the prioritized WMD domain threat and vulnerability.

       Moreover, although activity reports provide an overview of WMD
Coordinator work, the way each WMD Coordinator reports activities has not
been standardized. The level of detail provided by the activity reports varies
considerably, and they do not always indicate why WMD Coordinators
performed specific activities or whether these activities actually addressed
threats and vulnerabilities. Furthermore, the WMD Directorate has not
required that WMD Coordinators regularly submit activity reports. As a
result, some WMD Coordinators submitted activity reports once a week or
after completing major activities, while others submitted activity reports
sporadically or when prompted by the WMD Directorate. Therefore, to
ensure consistent and timely reporting of WMD Coordinator activities, we
recommend that the FBI ensure that WMD Coordinators submit activity
reports at regular intervals to facilitate tracking activities against domain
needs.

      Once the WMD Directorate obtains activity report data, it can compare
the activities WMD Coordinators performed to the top threats reported by
each field division. This comparison could provide the WMD Directorate with
the information to assess whether WMD Coordinators focused on detecting


       17
           The WMD Directorate uses the activity reports to compile statistics for internal FBI
and congressional data requests. In June 2008, the WMD Directorate announced that it had
begun revamping both the method and form that WMD Coordinators use to report their
activities. Activity reports will be submitted via an electronic communication. Instead of
having one large blank narrative area, the new format has 10 specific categories of
activities: (1) prevent and detect, (2) investigations, (3) special projects, (4) intelligence,
(5) planning, (6) liaison, (7) training received, (8) training provided, (9) intra-agency
coordination, and (10) inter-agency coordination.


                                              27

and mitigating their field division’s prioritized threats and vulnerabilities.
This information would also allow the WMD Directorate to identify the field
divisions that require assistance to keep their WMD domain management
processes on track. Without this information, the WMD Directorate may not
know whether a field division is having difficulty using domain awareness to
prioritize its WMD prevention efforts.

       As a result, we recommend that the FBI require that the WMD
Directorate track WMD Coordinator activities against specific WMD domain
threats and vulnerabilities to ensure that each field division is adequately
managing its WMD domain. This type of tracking will provide the WMD
Directorate with the information necessary for it to: (1) ascertain
periodically whether each WMD Coordinator is adequately addressing
reported domain threats and vulnerabilities while performing field division
activities; and (2) provide guidance, when necessary, to WMD Coordinators
and their supervisors when WMD Coordinator activities are not addressing
WMD domain threats and vulnerabilities.

Measuring WMD Coordinator Performance on Domain Activities

      The FBI maintains a performance plan system that rates each
employee against established critical elements determined by specific job
functions. For example, FBI Special Agents are rated against a set of
performance measures specific to the Special Agent position. While WMD
Coordinators are Special Agents, the WMD Coordinator position is full-time
with distinct responsibilities. Presently, the FBI uses Special Agent critical
elements, such as investigative accomplishments and human source
development, to rate the performance of WMD Coordinators. However,
under the domain management approach, WMD Coordinators need to focus
on managing the WMD domain and performing activities based on domain
awareness. As a result, their duties do not align with general Special Agent
performance elements.

       To ensure that WMD Coordinators focus on applying domain awareness
to plan and accomplish activities that address prioritized domain needs, we
believe that WMD Coordinator performance should not be based solely on
the Special Agent critical elements. For example, a WMD Coordinator may
choose to conduct outreach or teach an entity based on the number of
potential sources at that entity because that has been identified as a priority
for Special Agents, instead of based on whether that entity constitutes a
prioritized domain threat or vulnerability. Although domain management
may impact investigations and develop potential sources, a more accurate
performance-rating plan should be based on how the WMD Coordinators
address their domain management needs. Therefore, we recommend that

                                      28

the FBI develop performance-rating plans for the WMD Coordinator position
based on the tasks and skills necessary to manage the WMD domain
effectively.

Conclusion

        The FBI has begun to use domain management to administer and
evaluate field division WMD programs, which can identify and prioritize their
WMD threats and vulnerabilities. Because field divisions were not able to
identify WMD threats and vulnerabilities consistently in the first WMD Semi-
Annual Program Review, the FBI subsequently began conducting an initial
domain assessment with each field division. However, we found that these
initial domain assessments were being conducted not with WMD
Coordinators, but rather with field division Intelligence Analysts.

       Domain assessments lacking active participation from WMD
Coordinators are potentially inadequate for two reasons. First, WMD
Coordinators are the field division’s subject matter expert on WMDs. They
are charged with performing outreach and training individuals and groups
about WMD awareness, detection, risk mitigation, and response. Without
participating in the WMD domain assessment, WMD Coordinators may not
know how to best plan their outreach and training to address their field
division’s prioritized threats and vulnerabilities. Second, WMD Coordinators
are also a valuable source of WMD domain information. We believe that
their information should be made readily available during the domain
assessment process, and we recommend that WMD Coordinators participate
in their field division’s domain assessments.

       In our opinion, the advent of domain management should not
significantly change the function of the WMD Coordinator. Domain
management should instead change how WMD Coordinators prioritize, plan,
and report their activities. Before domain management, WMD Coordinators
applied various perceptions of risk to decide what WMD training and
outreach to perform. Under domain management, using perceptions of risk
will no longer suffice because WMD Coordinators will need to plan activities
that address specific needs and weaknesses identified during the domain
assessment. To facilitate the ability of the WMD Coordinator to acquire the
information for continuous domain assessments, the FBI needs to improve
how WMD Coordinators and other Special Agents share WMD information.
In addition, the FBI should conduct periodic reviews of its case files to
identify WMD connections and ensure that employees who perform work
with outside agencies share WMD relevant information with the WMD
Coordinator. We believe that both of these activities will increase the
availability of operationally derived information and help domain

                                     29

assessments provide a more accurate strategic understanding of WMD
domain threats and vulnerabilities.

       The FBI needs to ensure that WMD Coordinators plan and conduct
activities based on domain awareness. To accomplish this, the WMD
Directorate should also track WMD Coordinator activities against their field
division’s prioritized threats and vulnerabilities and assess WMD Coordinator
performance based on how they plan and perform activities that address
WMD domain needs.

Recommendations

We recommend that the FBI:

1.	   Ensure that a WMD Coordinator or a designated assistant WMD
      Coordinator participates in their field division’s WMD domain
      assessment.

2.	   Develop procedures to ensure that field divisions regularly: (1) review
      cases for WMD connections and (2) share pertinent case information
      with appropriate personnel so it can be evaluated during WMD domain
      assessments.

3.	   Enhance the sharing of WMD domain entity information acquired by
      personnel working with outside groups.

4.	   Ensure that WMD Coordinators submit activity reports at regular
      intervals to facilitate tracking activities against domain needs.

5.	   Require that the WMD Directorate track WMD Coordinator activities
      against specific WMD domain threats and vulnerabilities to ensure that
      each field division is adequately managing its WMD domain.

6.	   Develop performance-rating plans for the WMD Coordinator position
      based on the tasks and skills necessary to manage the WMD domain
      effectively.




                                     30

II.	   WMD COORDINATORS REQUIRE CLOSE COLLABORATION WITH
       DESIGNATED INTELLIGENCE ANALYSTS TO FACILITATE WMD
       INTELLIGENCE COLLECTION AND REPORTING

       Despite efforts to realign WMD investigations with field division
       intelligence capabilities, the FBI has not designated specific
       Intelligence Analysts to work with WMD Coordinators to facilitate
       WMD intelligence sharing. Intelligence Analysts skilled in WMD
       can provide complex assessments and help WMD Coordinators
       draft intelligence reports concerning intelligence trends, leading
       to expanded WMD Coordinator domain awareness. Additionally,
       although the WMD Directorate acquires and shares intelligence
       resources with the Directorate of Intelligence and its Field
       Intelligence Groups, the WMD Coordinator is not a formal part of
       the FBI’s intelligence process. As a result, the FBI has not
       ensured that WMD Coordinators are consistently applying
       intelligence resources to detect and mitigate WMD threats and
       vulnerabilities.

       Intelligence collection is a major priority for FBI field divisions. In
testimony provided to the House Judiciary Committee on September 2008,
FBI Director Robert Mueller stated that, “intelligence gathering does not
happen at Headquarters, it happens out in the communities [the FBI]
serves.” The FBI’s Strategic Plan acknowledges that one of the largest
challenges facing the FBI is establishing a common approach for collecting
and assessing intelligence. Because WMD Coordinators collect information
as part of their operational responsibilities and Intelligence Analysts assess
information with their Field Intelligence Groups, we believe that WMD
Coordinators and Intelligence Analysts need to work together better to
facilitate intelligence collection and evaluation within the WMD domain
management process.

Overview of FBI Intelligence Cycle

       As discussed in Finding I, intelligence is an integral WMD domain
entity. In gathering, sharing, and assessing intelligence, the FBI uses a
decentralized approach to identify emerging WMD threats. This intelligence
cycle, shown in Exhibit 9, involves many processes and steps that require
collaboration between participating programs and divisions. The FBI’s
intelligence cycle seeks to resolve intelligence gaps by requiring various
programs, divisions, and personnel to work together to identify, gather, and
assess information for intelligence.



                                      31

                    EXHIBIT 9: THE FBI INTELLIGENCE CYCLE



                                           1. Requirements. Specific and most
                                              significant information needs, as
                                              established by the Director of National
                                              Intelligence and other U.S. Intelligence
                                              Agencies.

                                           2. Planning and Direction. Managing the
                                              effort to satisfy national requirements and
                                              identify FBI-specific requirements.

                                           3. Collection. Gathering raw information
                                              through interviews, liaisons, surveillance,
                                              operations, and searches.

                                           4. Processing and Exploitation.
                                              Decrypting, translating, and reducing
                                              information into a usable format for
                                              analysts.

                                           5. Analysis and Production. Converting
                                              raw information into intelligence by
                                              evaluating its validity, placing it in
                                              context, drawing conclusions, and
                                              preparing raw or finished intelligence
                                              products.

                                           6. Dissemination. Distributing raw or
                                              finished intelligence to the U.S.
                                              Intelligence Community in response to
                                              specific requirements.

Source: FBI Directorate of Intelligence

        Within this intelligence cycle, collecting information is just one part of
  a larger effort that guides the constant processing, analysis, and
  dissemination of intelligence. The FBI uses this intelligence cycle to pinpoint
  specific instances of criminal or terrorist concern, such as suspicious
  chemical purchases or malicious threat letters. The resulting information,
  often fragmented and unrelated, is analyzed and paired with similar data
  trends that allow the FBI to identify national security gaps and
  vulnerabilities. To address identified gaps and vulnerabilities, the FBI relies
  on communication and information sharing between its programs to connect
  and shape new information with conventional intelligence. In addition to
  producing and disseminating intelligence reports, the FBI uses the
  information from this cycle to establish new intelligence collection
  requirements.

                                          32

       Various FBI groups, such as the Directorate of Intelligence, the WMD
Directorate, and the Field Intelligence Group at each field division, identify
and process WMD information in the intelligence cycle. These groups each
have WMD intelligence responsibilities that transcend traditional intelligence
and investigative roles. 18 The Directorate of Intelligence administers all
intelligence activities at FBI headquarters and ensures that intelligence
collection and analysis is conducted across the FBI’s investigative programs
through the Field Intelligence Groups.

       Embedded within the WMD Directorate, the Directorate of
Intelligence’s Intelligence and Analysis Section (IAS) manages and supports
WMD-specific investigations by targeting, identifying, and assessing
counterterrorism and proliferation threats. Field Intelligence Groups at each
field division work to identify, collect, and report raw and finished
intelligence to the Directorate of Intelligence and other members of the U.S.
Intelligence Community. Intelligence Analysts staff each Field Intelligence
Group and work to identify trends, assess and evaluate potential threats,
and aid field divisions in assembling fragmented intelligence information.
Field division Intelligence Analysts also assist Special Agents in drafting,
editing, and disseminating intelligence products to ensure that field division
intelligence is accurate and developed according to intelligence reporting
requirements.

      Although the groups within the FBI’s intelligence cycle have distinct
roles and responsibilities, they have been organized to work together in their
efforts to prevent WMD attacks. By sharing the capabilities of IAS, the WMD
Directorate and the Directorate of Intelligence can help ensure that national
investigative and intelligence activities are coordinated.

      In addition to performing its traditional WMD casework responsibilities,
the WMD Directorate and the WMD Coordinators have begun identifying and
sharing WMD-specific intelligence with some Field Intelligence Groups.
However, as shown by Exhibit 10, the method by which groups within the
FBI’s WMD program share and assess intelligence does not facilitate an
active working relationship between field division Intelligence Analysts and
WMD Coordinators. This lack of a standardized communication channel
creates a risk that these field division units will not continuously exchange
information on local WMD threats and vulnerabilities.


       18
           As part of the FBI’s ongoing initiative to realign its capacity to identify, assess,
and report domestic intelligence, the Field Intelligence Groups and their Intelligence
Analysts have begun applying their specialized intelligence skills to support specific
investigative programs.

                                               33

      EXHIBIT 10: WMD PROGRAM INTELLIGENCE ORGANIZATION



 FBI
                                                    Intelligence
 Headquarters     Directorate of Intelligence       and Analysis            WMD Directorate
 Groups                                               Section


                                                                              Investigations,
                          Intelligence
                                                                                Outreach,
                         Requirements
                                                                               Training, and
                              and
                                                                             Countermeasures
                           Reporting


 FBI                                                   No standard
 Field Office                                         communication
                   Field Intelligence Groups         channel between        WMD Coordinator
 Units                                            WMD Coordinator and
                                                Field Intelligence Groups



Source: OIG analysis of the Directorate of Intelligence and WMD Directorate

        In view of the role of WMD Coordinators as WMD subject matter
 experts, we believe that the structure used to identify and assess WMD
 intelligence in the field divisions must involve the WMD Coordinator. WMD
 Coordinators need to efficiently acquire and effectively use WMD intelligence
 to address prioritized domain needs. Additionally, Intelligence Analysts need
 to be positioned to assist WMD Coordinators in accomplishing activities that
 address WMD domain threats and vulnerabilities.

        The following section describes why the FBI’s WMD intelligence
 framework should include a formal method by which WMD Coordinators and
 field division Intelligence Analysts can collaborate.

 WMD Coordinator and Intelligence Analyst Collaboration

        Most WMD Coordinators were appointed to their position from Special
 Agent investigative backgrounds, while Intelligence Analysts have
 specialized information assessment training that offers different perspectives
 on WMD matters. One WMD Directorate official said that unlike WMD
 Coordinators, “Intelligence Analysts are taught to fish” for threats in the
 WMD domain. Intelligence Analysts can gather information on intelligence
 trends for WMD Coordinators, suggest questions to pose during human
 source interviews, and provide best practices on how to fulfill the FBI’s
 intelligence report requirements, mitigate threats, and prepare an adequate
 incident response through domain management. If the FBI ensured that
 WMD Coordinators and Intelligence Analysts work together, it would be



                                                34

better positioned to identify WMD threats and vulnerabilities to address
domain needs.

       As discussed in Finding I, the WMD Directorate is using Field
Intelligence Group Intelligence Analysts to conduct WMD domain
assessments for each field division without requiring that the information be
shared with the WMD Coordinators. WMD Coordinators we interviewed
provided several reasons why an enhanced intelligence sharing capability is
necessary on a day-to-day basis for the WMD program. Besides the need
for regular access to WMD intelligence, Coordinators also stated that
Intelligence Analyst assistance would help them navigate the FBI and larger
U.S. Intelligence Community’s intelligence apparatus.

Need for Field Division WMD Intelligence Support

       WMD Directorate officials told us that WMD Coordinators have not
been satisfied with their access to Field Intelligence Group resources. WMD
Coordinators have also stated that inconsistent coordination with field
division Intelligence Analysts negatively affects their ability to identify and
report WMD issues. Because of their responsibilities to teach WMD
awareness and response, perform outreach, and institute effective
countermeasures, some WMD Coordinators told us that they need assistance
to identify threats, assess vulnerabilities, and draft intelligence reports.
WMD Coordinators also told us that assistance from Intelligence Analysts
would allow them to expand their WMD knowledge, extend their capacity to
inform liaisons and perform outreach, and acquire the information necessary
to produce accurate and useful intelligence reports.

       According to FBI officials, designating specific Intelligence Analysts to
work on counterproliferation investigations has led to successful program
results. In December 2006, the WMD Directorate requested that each field
division designate an Intelligence Analyst to support newly established
Counterproliferation Coordinators on related casework. 19 This designation
has provided Intelligence Analysts the opportunity to become specialized in
counterproliferation trends and skills aimed at preventing and neutralizing
efforts to obtain WMDs illegally. Although Intelligence Analysts under this
model have been assigned to work with Special Agents on
counterproliferation cases, they still report to Field Intelligence Group
supervisors and day-to-day program activities are managed between the

       19
           In FY 2007, the WMD Directorate established Counterproliferation Coordinators in
each field division to work with the Counterintelligence and Counterterrorism Divisions to
prevent or neutralize the trafficking of WMD and dual-use technologies. As the field
division’s contact for all counterproliferation investigations, the Counterproliferation
Coordinator interacts with the WMD Coordinator.

                                            35

Special Agents and Intelligence Analysts. One Intelligence Analyst
conducting both WMD and counterproliferation intelligence duties told us
that the WMD Directorate should issue similar guidance to promote greater
collaboration between WMD Coordinators and Intelligence Analysts.

Status of Intelligence Analyst Collaboration with WMD Coordinators

       The FBI does not typically require that a field division Intelligence
Analyst work directly with the WMD Coordinator. WMD Directorate records
indicate that as of January 2009 only 21 of 56 field divisions, or 38 percent,
designated a specific Intelligence Analyst to work with the WMD Coordinator.
Instead, field divisions generally assign analysts to work on WMD concerns
based on the field division’s priorities and resources. Some field divisions
with a history of domestic terrorism incidents, such as Oklahoma City or New
York, provided designated intelligence support to potential WMD
investigations. Other field divisions also have their WMD Coordinators work
closely with designated Intelligence Analysts. According to these field
division managers and personnel, cooperation between WMD Coordinators
and Intelligence Analysts has fostered greater knowledge of WMD domain
entities.

       In the Oklahoma City Field Division, for example, the designated
Intelligence Analyst leverages the WMD Coordinator’s outreach by
constructing geospatial maps of key resources in the region, including
agricultural facilities, water treatment plants, and oil pipelines, and by
reaching out to interagency partners. In the New York Field Division, the
Intelligence Analyst designated to work with the WMD Coordinator attends
case and human source interviews. The Intelligence Analyst participates
alongside the Coordinator by gathering testimonial information that
addresses specific WMD intelligence requirements. The analyst also provides
strategic intelligence support to on-going WMD cases. The value added to
the division’s WMD program from intelligence collaboration has also led the
division to propose a WMD analysis group to support the WMD Coordinator’s
domain awareness.

       In contrast, we found that many field divisions that have not
experienced major terrorism events have dedicated Intelligence Analysts to
other investigative programs such as violent or white-collar crimes and are
not assigning the analysts any WMD intelligence duties. Some field divisions
assigned Intelligence Analysts to support a specific program or squad, while
others had Intelligence Analysts simultaneously identify, assess, and prepare
intelligence for many different investigative programs.



                                     36

       We found one instance where WMD officials from a large field division
requested help from field division Intelligence Analysts to develop and
provide on-going analysis of key industry and infrastructure elements within
the field division that could be linked to the production, use, or deployment
of a WMD. In their request, WMD officials described their need of a
designated Intelligence Analyst so that they could perform subsequent
strategic reviews of these elements. However, the division’s Field
Intelligence Group leadership perceived the project as an extension of
investigative casework. Leadership declined to assign an Intelligence
Analyst and instead recommended that the WMD program perform this
review by hiring a contractor. In contrast, another Field Intelligence Group
proactively determined that it should evaluate its infrastructure as a
foundation for greater domain awareness, and it designated an Intelligence
Analyst to help develop, identify, and assess similar infrastructure entities
within the field division.

       Although field division intelligence officials said they did not object to
supporting WMD initiatives, we found that some were reluctant to assign
analysts to specific investigative programs, including WMD. Some of these
officials told us that they believe Intelligence Analysts and Special Agents do
not understand their respective responsibilities and approaches to
accomplishing their work. Special Agents assigned to counterterrorism or
WMD squads focus on activities that prepare for, respond to, and contain
terrorist acts. Intelligence Analysts working on similar matters need to
spend much of their time evaluating raw, fragmented data and using
analytical tools to forecast potential threats facing the field division. As a
result, an Intelligence Analyst may not always have the time to proactively
support Special Agents with their case duties. Field Intelligence Group
officials also stated that they are cognizant of the amount of administrative
management that casework requires. These officials expressed concern that
a close collaboration between Intelligence Analysts and Special Agents will
lead to Special Agents assigning Intelligence Analysts unwanted
administrative case duties, such as answering the telephone or making
photocopies.

      While we understand the concern of Field Intelligence Group officials
that Intelligence Analysts may be used for administrative case functions, we
believe that the FBI needs to find a method for ensuring the close
collaboration of WMD Coordinators and Intelligence Analysts. As explained
below, the FBI has instituted a new process for increasing collaboration
between Special Agents and Intelligence Analysts. However, we have
concerns about whether this process will ensure an adequate level of
coordination between Intelligence Analysts and WMD Coordinators.


                                       37

Ongoing Efforts to Designate Certain Intelligence Analyst Functions

       The FBI has indicated that many field divisions lack direction about the
type of intelligence that each Field Intelligence Group should obtain and
analyze. To help address these issues, the FBI began reorganizing its field
division intelligence operations through its Strategic Execution Team (SET).
Comprised of nearly 100 agents, analysts, and other FBI professionals, SET
has: (1) evaluated how an array of field divisions handled intelligence,
(2) identified best practices to define an “optimal model for intelligence” for
every field division, and (3) instituted these models across the FBI. In
establishing each field division’s optimal intelligence model, the FBI expects
SET to refocus field operations to encourage all FBI personnel to support its
intelligence efforts.

       In December 2008, SET established a standard organizational model
for Field Intelligence Groups to manage five core field division intelligence
functions, as shown by Exhibit 11. 20 The FBI believes that these intelligence
functions, managed by appointed Special Agents or Intelligence Analysts,
will facilitate the exchange of information about specific domain entities
across all field division programs.




       20
           The FBI’s standardized Field Intelligence Group structure provides specific
functions and leadership positions to implement in each field division; however, it also
accounts for variations in office size and composition. Therefore, the FBI developed three
similar Field Intelligence Group models for application in small, medium, and large field
divisions.

                                            38

 EXHIBIT 11: REALIGNED FIELD INTELLIGENCE GROUP FUNCTIONS


                      Designated
                     Intelligence
   Function                                               Responsibilities
                    Analyst(s) or
                   Special Agent(s)
                                         • Implement and operate a strategy that
                                           continuously identifies a field division’s area of
                       Domain
    Domain                                 responsibility.
                    Management
 Management                             • Produce domain assessments and publications.
                     Coordinator
                                        • Identify intelligence gaps and detect threat
                                           patterns.
                                        • Coordinate the field division’s intelligence
                      Collection
   Collection                              collection efforts.
                    Management
 Management                             • Develop intelligence collection strategy and
                     Coordinator
                                           plan.
                                        • Identify, assess, develop, and recruit human
                    Special Agent          sources to address intelligence requirements.
 Requirements           Human           • Evaluate the authenticity, reliability, and
   Collection        Intelligence          control of sources.
                       Collector        • Form liaisons to identify threats and acquire
                                           confidential sources.
                                        • Interpret intelligence collection requirements.
                     Intelligence
                                        • Assist with targeting projects to develop new
    Tactical      Analyst Embedded
                                           sources.
  Intelligence     with Operational
                                        • Develop a local targeting strategy to identify
                        Squad
                                           new intelligence opportunities.
                                        • Accountable for production of accurate, timely,
  Intelligence
                    Chief Reports          and professional raw intelligence.
  Production &
                        Officer         • Reviews all raw intelligence to protect sources,
 Dissemination
                                           validates methods and adds value.
Source: FBI SET New Field Intelligence handbook, Version 1.5

       In August 2008, the FBI started providing field division Intelligence
Analysts with extensive training at FBI headquarters to address specific
expectations with regard to these new intelligence and management roles.
The FBI anticipates that after initial training is completed in October 2009
the field divisions should be able to begin integrating a complete intelligence
cycle that addresses key domain threats.

       In conjunction with SET, WMD Coordinators told us that they have
begun working in an informal capacity with their Field Intelligence Groups to
identify and develop intelligence on WMD threats and vulnerabilities.
However, WMD Coordinators, Intelligence Analysts, and SET program
officials indicated that they do not know how specific SET functions and
positions will interact and support WMD Coordinator work in obtaining and
sharing WMD intelligence. Therefore, once SET is finalized, the potential still
exists that some field divisions will not assign specific intelligence personnel
to work with the WMD Coordinator.

                                             39

       SET’s intelligence reorganization demonstrates that the FBI believes
field division Intelligence Analysts can be designated specific roles. For
example, Intelligence Analysts performing SET Tactical Intelligence functions
will report to a field division tactical intelligence supervisor but serve on a
field division investigative squad. These Intelligence Analysts will be
required to assist the squad with real-time intelligence reporting, the
interpretation and use of intelligence requirements, the identification and
collection of intelligence, and the analysis of information derived from
investigations.

       We recommend that the FBI require that each field division designate
an Intelligence Analyst to meet with the WMD Coordinator periodically and
discuss their planned work and activities and provide feedback on whether
these activities will address prioritized domain needs. In view of the WMD
domain assessment initiative, which has assigned specific field division
Intelligence Analysts to work with the WMD Directorate to prioritize threats
and vulnerabilities facing each field division, we believe these Intelligence
Analysts present the most appropriate Field Intelligence Group conduit for
the WMD Coordinator. Such a designation would also allow these
Intelligence Analysts to refine their WMD knowledge and skills and therefore
enhance WMD intelligence capabilities at each field division.

      Regarding the concerns of Field Intelligence Group officials about how
designated Intelligence Analysts would be used to assist investigative
aspects of the WMD program, we believe that the FBI needs to ensure that
designated Intelligence Analysts are used appropriately to identify, assess,
and report WMD intelligence instead of being assigned to work on ancillary
case duties.

Enhancing FBI WMD Intelligence Reporting Capability

       Intelligence report dissemination is critical to the FBI’s WMD program
because it is the primary means for communicating WMD threats and
vulnerabilities throughout the FBI and larger U.S. Intelligence Community.
It is also critical for identifying, addressing, and developing new intelligence
requirements to enhance the field division’s WMD domain awareness and
influence U.S. national security policy. The FBI communicates WMD
intelligence between its programs and to other intelligence agencies mainly
through three types of intelligence products, shown in Exhibit 12.




                                       40

             EXHIBIT 12: EXAMPLES OF FBI INTELLIGENCE

                         REPORT PRODUCTS


             Report Format                        Information Type
     Intelligence Information          Reports raw, unevaluated, and new data
     Report                            using established intelligence standards.
                                       Evaluates data that identifies specific
     Intelligence Assessment
                                       threats or trends.
                                       Assesses significant criminal or national
     Intelligence Bulletin             security developments and may not
                                       contain recommendations.
    Source: FBI Directorate of Intelligence

       Because intelligence production is such a significant part of the WMD
Coordinator’s knowledge of WMD threats and vulnerabilities, we reviewed
the types and quantity of WMD intelligence produced by field divisions. We
found that WMD Coordinators who worked closely with designated
Intelligence Analysts were able to enhance their knowledge and expertise.
They expanded their knowledge of ongoing WMD intelligence trends, field
division analytical infrastructure studies, and familiarity with the FBI’s
intelligence cycle and requirements. We believe that this type of working
relationship should be promoted between all Intelligence Analysts and WMD
Coordinators in order to enhance the skills of WMD Coordinators and
increase the number of well-sourced WMD intelligence reports.

Intelligence Reporting Requirements

       Field division Intelligence Analysts may write intelligence reports
themselves or assist Special Agents, including WMD Coordinators, in
developing and writing intelligence reports. However, intelligence
requirements related to chemical, biological, radiological, or nuclear
terrorism, promulgated by both Directorate of Intelligence and the larger
U.S. Intelligence Community, govern how to collect, produce, and
disseminate intelligence. These WMD requirements instruct analysts to
report specific information such as attempts to procure specific chemicals,
agents, or dispersal devices, or finite environmental signs of a WMD
incident. The requirements also include specified intelligence formats and
timeframes. In addition, U.S. Intelligence Community reporting standards
also influence how the FBI should format its intelligence reports.

      Intelligence reporting requirements and standards require that the FBI
devote specific units to develop draft intelligence reports, check drafted
reports against reporting standards, and disseminate approved reports to
the broader U.S. Intelligence Community. The WMD Directorate works with
                                              41

the Directorate of Intelligence’s Reports Section to draft intelligence reports
that comply with both FBI requirements and non-FBI requirements.
Reporting requirements can be adjusted if information pertains to an
imminent chemical, biological, radiological, or nuclear threat or addresses a
new but not previously identified intelligence need. However, Field
Intelligence Groups do not normally disseminate WMD intelligence reports on
their own. Instead, they work with the FBI’s Directorate of Intelligence and
the WMD Directorate to release intelligence reports to other members of the
U.S. Intelligence Community.21

Field Division Intelligence Report Production

       To gain a greater perspective on the volume of WMD intelligence
drafted by FBI field divisions, we reviewed the number of intelligence reports
issued by field division as detailed in the FBI field division June 2008 Semi-
Annual Program Review. 22 The Semi-Annual Program Review period covered
activity between October 2007 and June 2008. We found that 30 field
divisions, or more than half of all FBI field divisions, did not finalize and
disseminate a single WMD intelligence product. Meanwhile, only nine field
divisions disseminated five or more WMD intelligence products. As shown in
Exhibit 13, four field divisions disseminated two-thirds of the field division
WMD intelligence products.23




       21
           The FBI believes that if field divisions directly disseminate intelligence to the U.S.
Intelligence Community, it can improve the timeliness of intelligence products. In
designating a Chief Reports Officer at each field division, the FBI hopes to ensure that field
division generated intelligence adheres to requirements and quality standards. However,
limited technology and the need for FBI headquarters to approve sensitive interagency,
legal, and human source information has prevented field divisions from directly
disseminating WMD intelligence products. Appendix III provides additional details regarding
the process the FBI uses to review and disseminate WMD intelligence reports.
       22
           In evaluating the number of WMD intelligence reports disseminated by FBI field
divisions, we encountered several variables in the data available to us that led us to rely on
intelligence statistics reported in individual field division Semi-Annual Program Review
results. These variables included: (1) inconsistent data availability timeframes because the
FBI did not start to subcategorize WMD intelligence from counterterrorism intelligence until
April 2008, and (2) various reconciliation issues between FBI system intelligence statistics
and statistics reported by WMD Coordinators in field division Semi-Annual Program Reviews.
       23
          The number of WMD intelligence reports produced by field divisions does not
necessarily correlate to superior investigative or intelligence activity of those field divisions.
However, the number of reports issued was the only metric available that allowed us to
compare intelligence reporting capacity between field divisions and assess the overall ability
of each to identify and collect WMD intelligence.

                                               42

  EXHIBIT 13: FIELD DIVISIONS DISSEMINATING THE MOST WMD 

 INTELLIGENCE REPORTS BETWEEN OCTOBER 2007 AND JUNE 2008



                                                                           Number of
                                                                             WMD
                                                                          Intelligence
                                                    Field Division          Reports
                                              Chicago, IL                      43
                                              Washington, D.C.                 38
                                              Charlotte, NC                    11
                                              Springfield, IL                  20
                                              All Other Field Divisions        56
                                                                 TOTAL        168



     Source: OIG Analysis of FY 2008 FBI Semi-Annual Program Review

     Note: Percentages in pie chart rounded to total 100 percent.


      We found that field divisions able to disseminate the largest number of
WMD intelligence reports had an established approach or process in how
they handled their intelligence reporting.

       Although our review did not find that designated WMD Intelligence
Analysts necessarily increased the overall intelligence production of the field
division, WMD Coordinators told us that a more structured intelligence
apparatus would help them identify and report WMD intelligence. For
example, Coordinators cited instances where, without Intelligence Analyst
support, they submitted draft intelligence reports for Directorate of
Intelligence approval but the intelligence reports were sent back because the
reports did not: (1) consistently meet intelligence requirements, (2) adhere
to formatting standards, or (3) contain new or actionable information. As a
result, the Directorate of Intelligence could not finalize and disseminate
these WMD Coordinator-submitted draft reports. Directorate of Intelligence
officials confirmed that the majority of intelligence reports are returned to
field divisions for these reasons.

       An official with the Directorate of Intelligence also confirmed that
many Special Agents do not understand intelligence reporting requirements.
As a result, Special Agents are often not successful at drafting intelligence
that is complete, accurate, and correctly formatted for dissemination to
other intelligence agencies. Some WMD Coordinators told us that their lack
of intelligence reporting expertise has discouraged them from drafting
additional intelligence products. However, since Intelligence Analysts serve
as the field division experts in intelligence reporting, if WMD Coordinators

                                        43

worked more closely with them on WMD matters, Intelligence Analysts
would be better positioned to assist WMD Coordinators in producing WMD
intelligence reports that meet the standards for dissemination.

Supporting WMD Intelligence Analyst WMD Program Activities

      Although Intelligence Analysts receive funding for analytical activities
from their Field Intelligence Group, some analysts told us that they often
lacked the field division and WMD Directorate support necessary to conduct
additional analysis work on specific WMD activities. One analyst we
interviewed noted an inability to acquire even basic WMD research materials.
This Intelligence Analyst contacted the WMD Directorate for assistance, but
was informed that the WMD Directorate could not purchase materials for this
analyst because it does not “own” field division Intelligence Analysts, even if
they contribute to WMD intelligence efforts.

       We discussed the allocation of WMD-specific resources to finance
Intelligence Analyst activities and research material with WMD Coordinators.
Each fiscal year, WMD Coordinators submit a budget and receive, on
average, an allocation of $15,000 from the WMD Directorate to support their
investigative, outreach, and training activities. WMD Coordinators expressed
a willingness to use these funds to help support analyst WMD activities.
However, WMD Coordinators frequently mentioned that they were unaware
that analysts required WMD materials such as manuals, handbooks, or
analysis tools. One Coordinator with designated Field Intelligence Group
support allocated funds for their analyst to attend WMD-specific training to
enhance their WMD competency. Some WMD Coordinators stated that they
used their budget allowances to support Special Agents working on other
programs episodically, including hazardous materials and bomb response
squads, because their work also supported WMD awareness and prevention.

       In light of the FBI’s efforts to restructure its WMD intelligence
capabilities, the FBI should consider adjusting its strict programmatic
budgetary approach to allow one program’s resources to support another’s,
which would allow funds to support both investigative and analytical
activities that together are part of a comprehensive WMD program. 24 As
WMD Coordinators increasingly utilize Intelligence Analysts to identify and
prioritize WMD threats and vulnerabilities, they will require a means to
provide specific WMD analytical resources and training. The practice of

       24
           The WMD Directorate allocates direct funds to WMD Coordinators to support WMD
countermeasure, outreach, and training efforts in their field division. While field division
WMD efforts receive lateral assistance from other squads and teams, Special Agents and
Intelligence Analysts assisting the Coordinator request and receive direct funds from their
designated FBI division, program, or unit.

                                            44

separating Field Intelligence Groups and WMD budgets may become
burdensome to field divisions trying to establish WMD expertise across
intelligence and operational divisions.

       Once field divisions designate Intelligence Analysts to work with a
WMD Coordinator, we believe that the FBI has a responsibility to help ensure
that these analysts have the tools necessary to effectively contribute to field
division WMD efforts and the FBI’s overall WMD prevention strategy.
Therefore, we recommend that the FBI permit WMD Coordinators to consider
purchases requested by designated WMD Intelligence Analysts in formulating
their field division WMD budget requests.

Conclusion

       WMD Coordinators face significant challenges in addressing prioritized
WMD threats and vulnerabilities. It is therefore critical that the WMD
Coordinators share information with Intelligence Analysts quickly. Although
the FBI has established an organizational framework and comprehensive
intelligence cycle in an effort to promote regular communication between
programs, no formalized method facilitates collaboration between WMD
Coordinators and designated Intelligence Analysts. As a result, we found
limited WMD Coordinator interaction with Field Intelligence Groups relating
to WMD threats and vulnerabilities. WMD Coordinators reported that the
lack of analytical coordination on WMD matters with designated Intelligence
Analysts has hindered them from fully acquiring intelligence necessary to
identify specific WMD threats facing their field division.

       Ongoing work between WMD Coordinators and Intelligence Analysts in
some field divisions has resulted in useful infrastructure assessments and
strategic intelligence reporting, which has increased the WMD Coordinators’
awareness and management of their domains. WMD Coordinators who
worked closely with at least one Intelligence Analyst, such as WMD
Coordinators in the New York and Oklahoma City field divisions, said that
their collaborative work resulted in increased familiarity with intelligence
research methods and trends. Yet, varying field division priorities and a
general reluctance to dedicate analytical capabilities to the WMD Coordinator
program have resulted in only periodic interactions in other field divisions.

      Intelligence analysis is a specialized role best facilitated by Intelligence
Analysts. For the FBI to operate a continuous intelligence cycle that
provides an ongoing flow of WMD intelligence, close and dedicated
interaction between WMD Coordinators and Intelligence Analysts is essential.
At the same time, WMD Coordinators must also recognize that they need to
adequately fund and appropriately use designated intelligence support.

                                       45

WMD Coordinators and analysts should work together to understand one
another’s capabilities and mission. Therefore, despite Field Intelligence
Group officials’ sentiments that Intelligence Analysts will be left to perform
ancillary case duties when assigned to Special Agents, we believe that active
coordination between these personnel can improve actionable WMD
intelligence reporting that WMD Coordinators require to address their
domain needs.

Recommendations

We recommend that the FBI:

7. 	   Require that each field division designate an Intelligence Analyst to
       meet with the WMD Coordinator periodically and discuss their planned
       work and activities and provide feedback on whether these activities
       will address prioritized domain needs.

8. 	   Permit WMD Coordinators to consider purchases requested by
       designated WMD Intelligence Analysts in formulating their field division
       WMD budget requests.




                                      46

III.	 THE FBI NEEDS TO ENSURE WMD COORDINATORS AND
      INTELLIGENCE ANALYSTS CAN ADDRESS WMD DOMAIN NEEDS

     Although the FBI relies on WMD Coordinators to detect and
     prevent WMDs at the field division level, the FBI has not
     established initial qualifications or required skills for these
     Coordinators. The FBI also has not provided formalized training
     plans to ensure that WMD Coordinators and Intelligence Analysts
     develop the skills necessary to achieve comprehensive WMD
     domain awareness. Further, the FBI identified the lack of a
     systemic methodology or comprehensive ability to accurately
     track training that its WMD personnel have received. Without
     training requirements and tracking capabilities, the FBI cannot
     identify gaps in skills, reprioritize resources to mitigate those
     gaps, and ensure WMD preparedness throughout the FBI.

       The WMD Directorate is responsible for identifying, developing, and
offering WMD training throughout the FBI. Since its inception in 2006, the
WMD Directorate has substantially increased the number of training courses
and exercises offered to WMD Coordinators, other FBI Special Agents and
Intelligence Analysts, and law enforcement personnel at federal, state, and
local agencies. During FY 2006, the WMD Directorate hosted and
participated in 16 training exercises and provided instruction to 1,200
participants. Just 2 years later, in FY 2008, the WMD Directorate hosted and
participated in over 90 exercises that provided WMD training to almost 7,000
people in law enforcement and private industries. The Directorate has also
expanded the type of training subjects it hosts or helps host to ensure that
training is offered in each major WMD area – chemical, biological,
radiological, and nuclear.

      WMD Coordinators are responsible for training other FBI Special
Agents and field division personnel about detecting, handling, and
responding to WMDs. Because they serve as their field division’s WMD
subject matter expert and need to conduct activities to address domain
needs, WMD Coordinators require specialized training on the highly technical
and advanced nature of the WMD threats and vulnerabilities that may be
present in their respective WMD domain. Senior WMD Directorate officials
explained to us that different types of WMDs require specialized training
because the efforts needed to detect, mitigate, and handle chemical,
biological, radiological, and nuclear materials vary considerably.

     The following section discusses how the FBI identifies WMD training
needs and determines whether it has adequately prepared its WMD
Coordinators to address their specific WMD domain needs. In addition,

                                     47

because effective WMD domain management requires that WMD
Coordinators and Intelligence Analysts work together to prioritize and
address WMD threats and vulnerabilities, this section also assesses the WMD
training courses offered to FBI Intelligence Analysts who work with WMD
Coordinators.

Lack of Written WMD Coordinator Qualifications

       The WMD Directorate does not usually select specific Special Agents to
be WMD Coordinators. Instead, field divisions are responsible for
determining who should be WMD Coordinators. Even though WMD
Coordinators are not selected or approved by the WMD Directorate, the FBI
recognizes the specialized nature of their function and has designated the
position as a “specialty-transfer” position at the field division level. This
means that any Special Agent who receives WMD Coordinator training, even
if they are not currently a WMD Coordinator, can transfer to another field
division that needs a WMD Coordinator. Although WMD Coordinators require
specialized training, the FBI has not provided field divisions with specific
qualifications for the knowledge, skills, and abilities that WMD Coordinators
require. However, designated field division positions similar to the WMD
Coordinator have written qualifications and required skill sets that detail
specific skills and abilities for the position. For example, field division
management uses a list of required skill sets to help assess whether an
applicant has the skills necessary to serve successfully as a
Counterproliferation Coordinator. 25

       The lack of written qualifications for the WMD Coordinator position has
affected the WMD program in at least two ways. Without knowing the
specific skills and abilities required by the position, field division supervisors
may not select the most qualified Special Agents as WMD Coordinators.
Moreover, without written qualifications, already designated WMD
Coordinators may not know what additional training or skills they need to
acquire to be an effective WMD Coordinator. By providing field divisions with
WMD Coordinator qualifications, the FBI would allow field divisions to either
identify agents that can immediately begin conducting WMD outreach,
training, and countermeasures or to identify what training should be
provided to those agents who lack the qualifications to immediately step into
the WMD Coordinator position. Therefore, we recommend that the FBI
develop and disseminate WMD Coordinator position qualifications to field

       25
           The field division’s Counterproliferation Coordinator is responsible for coordinating
all Counterproliferation investigative programs and conducting liaison with the U.S.
Attorneys Office, and other intelligence and law enforcement agencies working proliferation
matters. Counterproliferation Coordinators also assist Counterproliferation Analysts in
identifying counterproliferation issues for dissemination to FBI and outside entities.

                                              48

division management and current WMD Coordinators to use in appointing
future WMD Coordinators and for delineating the necessary skills and
abilities current WMD Coordinators should obtain.

Identifying and Tracking WMD Training Requirements and Gaps

       FBI policies require that the WMD Directorate track and report the
WMD training obtained by its personnel. However, we found that the WMD
Directorate lacked the mechanisms necessary to track and report WMD
training accurately and as a result, could not easily ascertain whether WMD
Coordinator and Intelligence Analysts received adequate training.

Assessment of Preliminary WMD Training Tracking Activity

       The FBI’s Virtual Academy is the official online-based training system
that the FBI uses to track personnel training.26 The system, developed and
operated by the FBI’s Virtual Academy Unit, provides FBI personnel a means
to access their official training records, register for FBI courses, and track
portions of their own training. However, as of October 2008, the Virtual
Academy system could not track any non-FBI training, including field
training exercises, tabletop exercises, international training, or other federal,
state, or local training. 27 Because the FBI does not provide the vast majority
of available WMD-related training and Virtual Academy did not record
training offered by other agencies and groups, field divisions have been left
to track WMD training locally either on paper or by using electronic
spreadsheets.

       As of October 2008, the WMD Directorate had only one method readily
available to track WMD training received by WMD Coordinators: the
statistical accomplishment report. However, the WMD Directorate has not
been capturing and consolidating information provided on the statistical
accomplishment activity reports in a way that allows it to assess the training
needs of its field division WMD personnel. Since the WMD Directorate has
not been using activity reports to track WMD training, it cannot readily

       26
           As an internal learning management system, Virtual Academy was not intended to
track non-FBI training. Instead, the FBI established Virtual Academy to serve as a
structured, efficient, and electronically delivered learning system for FBI personnel,
pertinent forensic scientists, and other law enforcement officers.
       27
            During our audit, the FBI began working on a new Virtual Academy module that
will allow personnel to upload and track information pertaining to non-FBI coursework.
However, because these enhancements were not implemented during our audit, we could
not test them to determine if they provide FBI officials the ability to track WMD training and
identify field division personnel WMD knowledge gaps.


                                             49

assess whether the field division has the knowledge, skills, and abilities to
detect or handle WMDs.

Training Readiness Management System

      Because FBI employees receive non-FBI WMD training that cannot be
tracked by Virtual Academy, the WMD Directorate could not use Virtual
Academy to ascertain the WMD training readiness of each field division.
Consequently, in September 2008 the WMD Directorate issued a Statement
of Work to have a contractor begin expanding and developing new modules
to another database called the Training Readiness Management System
(Management System). Originally used to track the FBI Hostage Rescue
Team and Critical Incident Response Group training and readiness, the
Management System required significant modifications to meet new WMD
Directorate tracking and training information requirements. Because these
modifications are still being made and additional testing needs to be
performed, FBI officials said they have not set an expected date for
completing the Management System.

       The Management System will have eight modules and provide the
WMD Directorate the ability to access training records and capture WMD
readiness training levels across different field divisions.28 In addition,
Management System planning documents indicate that it will have the
capability to enable the FBI to reprioritize training and other resources based
on new and emerging WMD threats and vulnerabilities and track and report
training and readiness information, as shown by Exhibit 14.




      28
          The modules within the Training Management Readiness System consist of the
following: (1) Individual Training, (2) Collective Training, (3) Individual Readiness
and Collective Readiness Levels, (4) Equipment, (5) Training Management, (6) Personnel
Management, (7) Resource Management, and (8) Risk Management.

                                           50

             EXHIBIT 14: SELECTED TRAINING READINESS MANAGEMENT SYSTEM FEATURES 29

                              •     Contains WMD Directorate standard operating procedures, lesson plans, and training
     Administrative                 curriculum.
       Features               •     Navigates through the training approval screen that maps to designated training.
                              •     Incorporates screening criteria for approval authority based on task.
                              •     Enables WMD Directorate leaders, staff, and personnel to view training, readiness,
                                    equipment, references, and education resources
 Accessibility Features       •     Designated leaders and managers can view training calendars and exercises.
                              •     Leaders at all levels can access their respective unit's status in terms of training and
                                    mission essential and nonessential task lists.
                              •     "Exercise (or Training) Status Page" - includes a feature that highlights events that
                                    have passed, not been evaluated, or deferred.
                              •     Manages individual initial qualifications and recurring certifications.
                              •     Empirical assessments of organizational preparedness, multi-layered operational
  Tracking, Assessing,              proficiency, staff and support personnel proficiency.
     and Reporting            •     Provides for automated after action reviews and self-assessment.
        Features              •     Incorporates pre-determined reports based on WMD Directorate input (e.g. unit task
                                    readiness, trends, user permissions, task periodicities and weightings, current report
                                    formats).
                              •     Tracks costs associated with training based on user inputs.
                              •     Produces status reports as specified by the user.
                              •     Provides for management and prioritization of training exercises, events, and
 Prioritization Features            resources.
                              •     Enables reprioritization of training based on new missions or emerging threats.
  Integration Features        •     Provides for integration of training with operations.
Source: OIG overview of Training   Readiness Management System features




        29
            The elements detailed by Exhibit 14 have been categorized by the OIG based on our interpretation of the feature and
 are those we deemed most necessary to access, assess, and track WMD training accurately so that the WMD Directorate can
 identify gaps and reprioritize resources as necessary to ascertain and increase WMD readiness.

                                                                51

       Once the FBI and its contractor update the Management System, the
WMD Directorate will have administrator access to the system, although field
division personnel will not. Instead, WMD Coordinators, Intelligence
Analysts, and JTTF members who receive WMD training will need to use new
Virtual Academy modules to upload their training information. Because field
division personnel will not be able to directly enter training data in the
Management System, the WMD Directorate will have to export Virtual
Academy training records to the Management System on a regular basis.

      WMD Directorate officials told us that through these Management
System modules, they will be able to track WMD training of both internal
Special Agents acting as WMD Coordinators and Intelligence Analysts as well
as external law enforcement partners and JTTF members. This system
should also allow the Directorate to identify gaps and increase and capture
WMD readiness. These additional capabilities should allow the WMD
Directorate to reprioritize resources and training where it’s most needed.

       However, the Management System will not interface with Virtual
Academy, which has served as the FBI’s official tracking system for training.
Although we recognize the importance of the reporting and analysis benefits
the Management System will provide to the WMD Directorate, the FBI should
have a method to regularly reconcile Management System data with Virtual
Academy data to ensure that both systems’ training information is accurate
and complete. Furthermore, regular reconciliation will enhance the reliability
of the data used by the WMD Directorate to ascertain the WMD readiness of
field division personnel. Therefore, we recommend that the FBI develop and
implement a method that shares and reconciles Training Readiness
Management System data with Virtual Academy records.

WMD Coordinator Training Initiatives

        We interviewed WMD Coordinators at several field divisions and noted
that they generally had different backgrounds, experience, training, and
education levels. While all WMD Coordinators received standard Special
Agent training at the FBI Academy in Quantico, Virginia, many had not
received specialized WMD training before they were designated as their field
division’s WMD Coordinator. To ensure that WMD Coordinators have the
skills and abilities they need to serve as their field division’s WMD subject
matter expert, the WMD Directorate has been developing additional WMD
training opportunities for these personnel. As of October 2008, the WMD
Directorate has been working on two major WMD Coordinator training
initiatives. First, the WMD Directorate has begun developing a certification
program that will serve as a training plan for WMD Coordinators. Second,
the WMD Directorate has partnered with a higher educational institution to

                                     52

offer an advanced degree WMD training program for WMD Coordinators and
other interested WMD personnel.

WMD Certification Program

       In FY 2006, the WMD Directorate began developing a WMD
certification program for all WMD Coordinators which will serve as a training
plan to guide WMD Coordinator development and learning. According to
Directorate officials, the certification program will include “hands on” training
on specific WMD areas. In addition, portions of the draft certification
program include rotational threat-based training that WMD Coordinators will
need to complete every 18 months.

       However, the WMD certification program has encountered some
developmental issues that have prevented it from being finalized. For
example, the WMD Directorate reported that it has had difficulty deciding
whether current WMD Coordinators, including those who have served in the
position for many years, must be required to attend the same training
courses as newly designated or less experienced WMD Coordinators. In
addition, because WMD Coordinators have different WMD skills and abilities,
the WMD Directorate has had trouble deciding how the certification program
should be tailored to individual WMD Coordinators. Because it has not yet
resolved all of these issues, the FBI has not been able to finalize the WMD
certification program and to date there are no official training requirements
or training plan for WMD Coordinators or other personnel working with
WMDs.

       We believe that a certification program that aligns training needs with
domain priorities would help improve the WMD Coordinators’ skills and help
in their performance of domain-related activities. WMD Directorate officials
stated that they are “on track” to instituting their certification program for
WMD Coordinators by the end of FY 2009. We recommend the FBI:
(1) finalize its WMD Coordinator certification program opportunities, and
(2) ensure that the finalized certification program offers threat-based
courses based on the WMD domain threats and vulnerabilities within a WMD
Coordinator’s field division.




                                       53

Continuing Higher Education Program

        In 2008, the WMD Directorate began a continuing higher education
program, referred to as the masters program, with the Indiana University of
Pennsylvania to enhance WMD training for Special Agents and Intelligence
Analysts. The program offers participants up to 30 academic credits. The
initial 15 credits, referred to as the WMD Masters Certificate of Recognition
Program (Phase 1), will be incorporated as part of the FBI’s certification
program. Phase 1 includes five courses designed to provide FBI WMD
personnel with additional training in criminology, hazardous materials, and
disaster preparedness. 30 After Phase 1, participants have the option to
acquire 15 more credits via the program’s second phase, referred to as the
Master’s Degree Completion Program (Phase 2). Phase 2 builds on the
coursework offered by Phase 1 and focuses on quantitative WMD strategies,
analysis, and research methods. While most of the available courses are
part of the University’s Masters in Criminology Program, almost all courses
that are included in the curriculum for FBI personnel include a specific
emphasis on the material most relevant to the FBI’s role in WMD.

       The masters program began in September 2008 with 18 WMD
personnel from the FBI participating. The masters program continued with a
second class that began on February 23, 2009, with 22 participants. As a
result, 40 FBI personnel with a role in preventing WMD are on track to
complete the Certificate of Recognition program in 2009. Further, 18 WMD
personnel are enrolled in Phase 2 of the program and set to complete it by
December 2009. As of February 2009 the FBI had spent $327,000 on all
tuition costs, per diem, and other travel costs incurred by FBI employees
attending these classes. While maintaining their full-time duties as FBI
employees, program participants will attend lectures and seminars at the
university, national laboratories, and FBI locations; and they must complete
projects at the end of each program phase.

      Due to the infancy of the masters program and the constantly
changing nature of the risks and vulnerabilities surrounding WMD, the FBI
should ensure that the course material included in the masters program
continues to focus on the most relevant or pressing WMD concerns faced by
WMD Coordinators and others working in the field divisions. Therefore, we
recommend that the FBI implement a procedure by which the courses
offered by the Indiana University of Pennsylvania Masters Certificate
Program and Masters Degree Completion Program are regularly reviewed



       30
          Appendix IV contains a list of continuing higher education program courses and
their descriptions.

                                            54

and assessed to ensure that course material address the changing needs of
WMD Coordinators and Intelligence Analysts.

WMD Intelligence Analyst Training Efforts

       The FBI has not established required skills or training requirements for
Intelligence Analysts who work closely with WMD Coordinators and perform
the WMD domain assessment.31 Intelligence Analysts who worked on WMD
matters exhibited a wide variety of backgrounds and have received training
on general intelligence matters and requirements. To facilitate WMD
Coordinator efforts to detect and prevent WMDs, Intelligence Analysts need
to understand biological, chemical, nuclear, and radiological materials as
they relate to or can be used as WMDs.

       The FBI has offered general WMD training sessions for Intelligence
Analysts and a 3-day WMD Analytical Conference sponsored by the WMD
Directorate’s embedded Intelligence and Analysis Section. According to
WMD Directorate records, 83 percent of Intelligence Analysts who worked on
WMD activities attended the WMD analytical conference. The conference
consisted of internal FBI and external presentations, as well as threat
briefings and exercises and was intended to educate analysts about WMD
and foster the development of a larger WMD analytical community. In
addition, the conference helped brief analysts on the basics of the WMD
Directorate and its WMD program. The conference included practical
exercises and case studies, including a WMD presentation from Department
of Defense and presentations on counterproliferation, international, and
domestic terrorism threats.

       In spite of the course and conference offerings, Intelligence Analysts
who worked with WMD Coordinators told us that they did not have a strong
background in WMD or proficient knowledge of WMD related materials. We
reviewed FBI Intelligence Analyst training records and found that many
attended classes that provided overviews of WMD concerns such as a
domestic terrorism class and a WMD Intelligence Analyst conference.
However, we found that although the FBI has provided most of its
Intelligence Analysts with a basic overview of WMD threats and
vulnerabilities, many FBI Intelligence Analysts have either not received or
have not recorded training on specific WMD areas, indicators, precursors, or
trigger points.


       31
          As discussed in Finding II, the Intelligence Analysts are coordinated by the FBI’s
Directorate of Intelligence, which establishes specific Intelligence Analyst training
requirements.


                                             55

Training Plans for WMD Intelligence Analysts

       The FBI has not developed a WMD training plan for Intelligence
Analysts who support the WMD Coordinators in domain management efforts.
Some Intelligence Analysts told us that until July 2008 they had not received
any guidance on what WMD courses they should take. 32 Instead, an official
with the Directorate of Intelligence told us that the FBI sends WMD
Intelligence Analysts to training outside the FBI for domain or specific types
of intelligence training. For example, the WMD Directorate dispatches some
Intelligence Analysts to courses held at the Central Intelligence Agency (CIA)
due in part to its expanded WMD course options.

       We compared the approach the FBI has used to train its WMD
Intelligence Analysts to the method the Central Intelligence Agency uses to
train its analysts. Unlike FBI Intelligence Analysts who have only been
provided limited WMD training, CIA officials told us that their analysts must
complete specialized courses before beginning work in a certain field.
Furthermore, CIA analysts work closely with their supervisors to regularly
identify and attend mission related intelligence courses. Additionally, the
CIA also routinely offers its Intelligence Analysts training in a wide variety of
WMD disciplines and modalities. According to CIA officials, the supervisory
involvement in course selection, coupled with the availability of different
course opportunities, reportedly allow these Intelligence Analysts to remain
current on the changing threats and challenges facing the CIA.

      Recognizing that Intelligence Analysts that work with WMD
Coordinators need special skills and abilities, we recommend that the FBI
develop a targeted WMD training plan encompassing both general and
specific WMD-knowledge requirements for Intelligence Analysts who work
with WMD Coordinators. Similar to our overall concerns regarding WMD
Coordinator training, the finalized training plan should allow Intelligence
Analysts to select training that addresses specific vulnerabilities and threats
encompassed by their field division’s WMD domain.




       32
           The Directorate circulated an informal list of WMD classes in July 2008 to
Intelligence Analysts – but only to analysts who had attended previous WMD Intelligence
Analyst conferences. At that time the WMD Directorate issued a data call to various
Intelligence Analysts that listed a series of classes, and asked them a series of questions
including whether they believed the classes would help them compile intelligence reports
and how long they had worked on WMD-related topics.


                                             56

Conclusion

       The FBI has not yet defined the qualifications and experience that
WMD Coordinators require to achieve WMD subject matter expertise. Some
field divisions have assigned Special Agents with limited to no prior WMD
knowledge or skills to be WMD Coordinators. We recommend that the FBI
identify the skills and abilities they need to become WMD subject matter
experts.

      To fully implement and sustain the WMD domain management
process, WMD Coordinators and Intelligence Analysts need to receive
specialized WMD threat-driven training. Although the WMD Directorate has
developed and provided many training opportunities for its Coordinators, it
has not defined a specialized training plan for them to use. Without such a
required set of skills, background, or comprehensive training plan, the
potential increases that WMD Coordinators and Intelligence Analysts will not
be able to identify their domain threats and vulnerabilities. Because
comprehensive domain knowledge relies on the integration of intelligence,
we therefore believe it is important that both WMD Coordinators and any
designated Intelligence Analysts receive training on specific WMD issues
facing their field division. However, the FBI has not yet required that WMD
Coordinators or Intelligence Analysts receive training that addresses the
specific identified threats or vulnerabilities prioritized by field division domain
assessments.

       Moreover, the WMD Directorate is unable to access, track, and report
accurately the training its WMD Coordinators, Intelligence Analysts, and
other WMD personnel have received. Because of this, the Directorate cannot
identify and assess WMD knowledge gaps and cannot effectively reprioritize
resources to ensure that its personnel can adequately detect and prevent
WMD attacks. Recognizing this deficiency, the WMD Directorate has begun
to have the Training Readiness Management System customized to meet
additional tracking and reporting requirements. Although this system will
allow the Directorate to assess gaps in training, prioritize resources to
mitigate those gaps, and also reprioritize training based on new and
emerging WMD threats and vulnerabilities, it will not interface or
communicate with Virtual Academy, which is the FBI’s official training
record. Because multiple training records increases the potential for
inaccurate or incomplete reporting, the FBI needs to implement a means by
which information in the Training Readiness Management System and Virtual
Academy is regularly updated and reconciled.




                                        57

       Finally, the FBI has not developed training plans for the Intelligence
Analysts that work on WMD investigations and collect WMD intelligence.
Without ensuring that Intelligence Analysts acquire and maintain strong
WMD knowledge and skills, the FBI cannot ensure that they will be able to
identify WMD threats and vulnerabilities within their domain.

Recommendations

We recommend that the FBI:

9.	    Develop and disseminate WMD Coordinator position qualifications to
       field division management and WMD Coordinators to use in appointing
       future WMD Coordinators and for delineating the necessary skills and
       abilities current WMD Coordinators should obtain.

10.	   Develop and implement a method that shares and reconciles
       Training Readiness Management System data with Virtual Academy
       records.

11.	   Finalize its WMD Coordinator certification program opportunities and
       ensure that the finalized certification program offers threat-based
       courses based on the WMD domain threats and vulnerabilities
       within a WMD Coordinator’s field division.

12.	   Implement a procedure by which the courses offered by the Indiana
       University of Pennsylvania Masters Certificate Program and Masters
       Degree Completion Program are regularly reviewed and assessed to
       ensure that course material address the changing needs of WMD
       Coordinators and Intelligence Analysts.

13.	   Develop a targeted WMD training plan encompassing both general and
       specific WMD-knowledge requirements for Intelligence Analysts who
       work with WMD Coordinators that address the specific vulnerabilities
       and threats of their field division’s WMD domain.




                                      58

        STATEMENT ON COMPLIANCE WITH LAWS AND

                     REGULATIONS


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
Federal Bureau of Investigation’s (FBI) management complied with federal
laws and regulations for which noncompliance, in our judgment, could have
a material effect on the results of our audit. The FBI’s management is
responsible for ensuring compliance with federal laws and regulations
applicable to the FBI’s weapons of mass destruction Coordinator program.
In planning our audit, we identified the following laws and regulations that
concerned the operations of the FBI and that were significant in the context
of the audit objectives:

     •	 28 U.S.C. § 533

     •	 28 C.F.R. § 0.85

     •	 Homeland Security Presidential Directive 5

     •	 Homeland Security Presidential Directive 15 and its annexes.

     •	 U.S. Department of Homeland Security National Response
        Framework

       Our audit included examining, on a test basis, the FBI’s compliance
with the aforementioned laws and regulations that could have a material
effect on the FBI’s operations, through interviewing FBI personnel and
conducting assessments of the WMD Coordinator efforts to prevent, prepare,
and respond to WMD. Nothing came to our attention that caused us to
believe that the FBI was not in compliance with the aforementioned laws and
regulations.




                                     59

               STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect the following: (1) impairments to the effectiveness and efficiency of
operations, (2) misstatements in financial or performance information, or
(3) violations of laws and regulations. Our evaluation of the Federal Bureau
of Investigation’s (FBI) internal controls was not made for the purpose of
providing assurance on its internal control structure as a whole. The FBI’s
management is responsible for the establishment and maintenance of
internal controls.

       Through our audit testing, we did not identify any deficiencies in the
FBI’s internal controls that are significant within the context of the audit
objectives and based upon the audit work performed that we believe would
affect the FBI’s ability to effectively and efficiently operate to correctly state
financial and performance information and to ensure compliance with laws,
regulations, and other applicable requirements.

       Because we are not expressing an opinion on the FBI’s internal control
structure as a whole, this statement is intended solely for the information
and use of the FBI. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                        60

                              DEFINITIONS

      Domain is the territory and issues for which a field division or an FBI
investigative program exercises responsibility or authority.

      Domain Assessments are traditionally intelligence gathering and
evaluation activities programmed to capture, review, and prioritize threats,
vulnerabilities, and intelligence gaps presented by specific domain entities.

       Domain Awareness is the knowledge of the prioritized domain
threats and vulnerabilities that is acquired via domain assessments. When
activities are planned and performed based on prioritized threats and
vulnerabilities, a FBI field division or program achieves “true domain
awareness.”

      Domain Entities are specific items or attributes of the domain. For
the WMD domain, specific examples can range from specific people that
have the knowledge or desire to obtain WMDs to security efforts at seaports
and airports.

    Domain Management is the process by which a field division
manages and improves its domain awareness.

      Field Divisions are the 56 FBI field offices and any resident agencies
within their respective geographic area of responsibility.

      Intelligence is information that has been analyzed, edited, and
refined so that it is useful to policymakers and law enforcement personnel,
especially in regard to national security threats.

       Threats and Vulnerabilities are weaknesses, risks, and gaps that
are assessed and prioritized by a domain assessment. Threats and
vulnerabilities can range from those that pertain to a specific domain entity
or to the entire domain.




                                      61

                      ACRONYMS


CBRN     Chemical, Biological, Radiological, and Nuclear Material

CIA      Central Intelligence Agency

C.F.R.   Code of Federal Regulations

FBI      Federal Bureau of Investigation

HAZMAT   Hazardous Material

HSPD     Homeland Security Presidential Directive

IAS      Intelligence and Analysis Section

IIR      Intelligence Information Report

JTTF     Joint Terrorism Task Force

NSPD     National Security Presidential Directive

OIG      Office of the Inspector General

WMD      Weapons of Mass Destruction

SET      Strategic Execution Team Initiative

U.S.C.   United States Code




                              62

                                                                  APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The Department of Justice Office of the Inspector General (OIG)
conducted an audit to: (1) assess how WMD Coordinators’ should plan and
perform activities that address prioritized WMD threats and vulnerabilities,
(2) evaluate the FBI’s integration of WMD Coordinator functions with field
division intelligence capabilities and practices, and (3) review FBI efforts to
ensure that WMD Coordinators and others that work on the WMD program
have the skills and abilities necessary to detect and prevent WMD attacks.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. The audit generally covers, but is not limited to, FBI WMD
programs and activities from July 2006 to December 2008.

       To accomplish our audit objectives, we obtained and reviewed all
identified laws and regulations, as well as any other pertinent internal WMD
program policies and guidance. In conducting this audit we interviewed over
80 FBI officials and employees, including the Assistant Director of the WMD
Directorate. To obtain background in the field division WMD program and
understand the environment that WMD Coordinators work in, we also
attended the WMD Coordinators Conference in Albuquerque, New Mexico in
June 2008. At the conference, we observed examples of training provided to
WMD Coordinators.

       We conducted field work and interviewed FBI officials and personnel
with its WMD Directorate, the Directorate of Intelligence, and other pertinent
operational groups at FBI headquarters in Washington, D.C. We also visited
and spoke to officials and personnel at eight FBI field divisions. Our
selection of the field divisions was based on a methodology that considered
various aspects of WMD activities, intelligence and operational capabilities,
liaison and other contacts with industry, academia, and emergency response
groups, as well as field division size and geographical disparity.


                                       63

                    SELECTED FIELD DIVISION SITES


         Houston, Texas                  New York, New York
         Oklahoma City, Oklahoma         Phoenix, Arizona
         Baltimore, Maryland             Tampa, Florida
         Washington, D.C.                Los Angeles, California
        Source: OIG assessment of WMD data

       Because the FBI considers the WMD Coordinator the field division
subject matter expert on WMD, we conducted interviews with WMD
Coordinators, their supervisors, and other managers to determine the
methodology and requirements for selecting such agents for the position.
We also assessed WMD Coordinator performance plans and related activities
to determine whether the performance plans adequately address their
activities and allow them to be rated on a fair set of metrics.

       Further, our audit work included many interviews with FBI private
industry liaison partners, public health agencies, and state and local police
departments. Our audit also included discussions and interviews with
officials at other federal agencies, including the U.S. Department of
Homeland Security and the U.S. Department of State. Officials and
personnel with these organizations provided their input on the interaction
with the field division WMD Coordinators and the types of training and
information received from FBI officials, including WMD Coordinators and
their assistants.

Domain Management

       Throughout the audit, the methods by which field divisions evaluated
and performed field division WMD program activities changed in response to
the FBI’s implementation of domain management. Recognizing these
changes, we adjusted our audit objectives during our review to ensure that
we assessed how the FBI’s application of domain management to field
division WMD programs would affect the WMD Coordinator’s role. We then
used the results of our fieldwork to determine what we believe are best
practices that the FBI needs to implement to sustain a comprehensive WMD
domain management process at its field divisions. Because the FBI only
began to apply the domain concept to its field division WMD programs during
our audit, we could not evaluate the results of its implementation of its
process.

      To identify the types of activities performed by WMD Coordinators, we
also relied upon information contained in reports submitted by WMD
Coordinators to FBI headquarters on a periodic basis that are used to

                                       64

summarize statistical accomplishment information at the field division level.
We analyzed this information to determine the type of categories that are
captured and reported and to identify whether WMD Coordinator activities
were adequate to address the field division WMD threats and vulnerabilities.
We reviewed planned updates to these reports. We also assessed the field
division and FBI headquarters WMD incident response framework, including
guidance, and analyzed the number of threats per field division and related
threat assessments.

      We collected, reviewed, and assessed each field division’s WMD Semi-
Annual Program Review as they were performed and completed during our
audit. Each field division identified and listed their top WMD threats on their
Semi-Annual Program Review. We conducted interviews with field division
WMD Coordinators to ascertain how they identified and prioritized these
threats. Because the FBI had not ensured that WMD Coordinators knew of
the domain management approach, the WMD Coordinators were not able to
use domain awareness to identify their field division’s top threats on the
Semi-Annual Program Review.

Intelligence and Strategic Execution Teams

       We determined the adequacy of field division analytical support by
conducting interviews and reviewing documentation to assess whether the
WMD program has a designated Intelligence Analyst. We also reviewed the
related activity level of field division Intelligence Analysts to determine
whether their time was adequately allocated to support the WMD program at
the field division. We reviewed the different types of intelligence reports at
the field division level and assessed the differences among them. Such
reports included Intelligence Information Reports, Intelligence Bulletins, and
Intelligence Assessments. We also reviewed the field division's most recent
Semi-Annual Program Review, to determine the field divisions’ assessment
of analytical support.

       The FBI also established Strategic Execution Teams (SET) and
continued restructuring the Field Intelligence Groups during the audit. To
assess the impact of SET on field division WMD programs, we reviewed FBI
policies and guidance related to the FBI’s reorganization of their Intelligence
Groups as carried out by the Strategic Execution Teams, obtained and
analyzed pertinent supporting documentation, and conducted interviews to
assess how these changes could impact the WMD program at the field
division level. During these interviews, we took into consideration the early
status of its field division intelligence reorganization at the field divisions and
the schedule of SET implementation from March 2008 to January 2009.


                                        65

Training

       We obtained lists from the FBI documenting their assigned WMD
Coordinators and Intelligence Analysts. We also pulled assignments for
these positions from different WMD related training attendance lists. We
identified and reviewed the various types of training opportunities that are
available to WMD Coordinators, Assistant Coordinators, Intelligence
Analysts, and other WMD personnel outside the FBI. We collected all
designated WMD Coordinators and Intelligence Analysts training records
from the FBI’s Virtual Academy System. We relied on this computer
generated data as it was pulled from the official training system used by the
FBI. Therefore we did not conduct testing to verify the accuracy of this data
from the Virtual Academy system. We analyzed the training received by
WMD Coordinators and Intelligence Analysts and compared that to the
modalities of WMD to determine the percentage of WMD Coordinators and
Intelligence Analysts that have had some form of modality-based training.

      A review of WMD Coordinator training records in the FBI’s Virtual
Academy system showed that, as of October 2008, just over half have
recorded basic WMD training. As shown below, our analysis also revealed
that WMD Coordinators have recorded limited training on specific WMD
modalities.33




      33
           We consider the major components or modalities of WMD to include biological,
chemical, radiological, nuclear, and agro terrorism. To complete this analysis we broke
WMD Coordinator training into eight common WMD modalities which can be defined as the
following: (1) General WMD or CBRN; (2) Biological; (3) Chemical, including chemical
explosives; (4) Radiological; (5) Nuclear; (6) Agro-terrorism; (7) Explosives; and (8)
Hazardous Materials. We recognize that additional training may have been received prior to
joining the FBI; however, this training has not been analyzed as part of this review.


                                           66

 PERCENTAGE OF WMD COORDINATORS THAT HAD RECEIVED WMD 

               TRAINING AS OF OCTOBER 2008


                                             Percent of WMD
              WMD Modality              Coordinators that Received
                                                Training*
           WMD                                  58 percent
           Agro-terrorism                       51 percent
           Biological                           47 percent
           Chemical                             28 percent
           Radiological                         25 percent
           Nuclear                               7 percent
           Explosives                           70 percent
           Hazardous Materials                  53 percent
           Source: OIG Analysis of FBI official training records
           * Calculation based on total 57 WMD Coordinators.

       Intelligence Analysts that worked with WMD Coordinators told us that
they did not have a strong WMD background or knowledgebase and also
lacked substantive training on WMD modalities, such as chemical, biological,
radiological, or nuclear disciplines. We reviewed FBI Intelligence Analyst
training records and found that few received specialized WMD modality
courses as shown below.




                                          67

                 WMD INTELLIGENCE ANALYST TRAINING


                                              WMD Intelligence
               WMD Modality
                                            Analysts Participating*
         Domestic or International
                                                     88 percent
         Terrorism
         WMD Intelligence Analyst
                                                     88 percent
         Conference
         Agro-terrorism                              15 percent
         Biological                                  13 percent
         Chemical                                     5 percent
         Radiological                                 0 percent
         Nuclear                                      5 percent
         Explosives                                   5 percent
         Hazardous Materials                          7 percent
         Counterproliferation                        29 percent
        Source: OIG Analysis of Virtual Academy Records
        * Note: 	 Calculation based upon 86 analysts, which includes one analyst
          position for all field divisions regardless of whether they had one
          designated as well as multiple Analysts that were designated at field
          divisions. (Number of Analysts Trained/86)

       Although we assessed WMD Coordinator and Intelligence Analyst
training as provided from Virtual Academy, we recognize that many
weaknesses exist in the system. Training in WMD Modality areas could have
been obtained from outside sources, including the CIA and other U.S.
Intelligence Community partners, however is not included and tracked in
Virtual Academy. We also recognize that additional training may have been
received prior to joining the FBI; however, this training has not been
analyzed as part of this review. Because of these recognized weaknesses,
we could not rely on this assessment of training and could not determine
whether the assessment actually reflects the training status of WMD
employees. Therefore we did not include this assessment as a condition in
the related finding.




                                          68

Other Items

       Throughout the audit, explored all identified, ongoing initiatives at the
WMD Directorate that related to the field division WMD Coordinators and
Intelligence Analysts, including domain assessment pilot programs, case
reviews and templates used, and additional systems that are being built or
designed to facilitate WMD readiness. We conducted interviews to obtain
additional information on the Training Readiness Management System and
Domain Liaison Knowledgebase, and we received and reviewed
documentation pertaining to these systems. The Training Readiness
Management System is used by the Hostage Rescue Team and Critical
Incident Response Group, and the Domain Liaison Knowledgebase is used by
the Counterintelligence Division.




                                      69

                                                                APPENDIX II

OVERVIEW OF INVESTIGATIVE RESPONSIBILITIES OF THE
        FBI’S NATIONAL SECURITY BRANCH

      The FBI assigns each investigation a case classification number that
depends on the nature of the crime or activity being investigated.
Accordingly, each division of the National Security Branch has been assigned
to lead or act as the case manager for a particular set of case classification
numbers. For example, the Counterterrorism Division manages most
domestic and international investigations into terrorist activities while the
Counterintelligence Division manages espionage, foreign intelligence, and
country-threat counterproliferation investigations.

                    NATIONAL SECURITY BRANCH

              CASE CLASSIFICATION RESPONSIBILITIES


                                                           Number of Lead
  Investigative                                             Investigative
    Division                       Case Type               Responsibilities
                      Espionage, Foreign Political
Counterintelligence   Matters, Specified Country                   293
                      Proliferation, Assets, Students
                      Preparedness for Special Events,
                      Aviation, Assets, International
 Counterterrorism                                                  105
                      Terrorism, Overthrow/Destruction
                      of Government
                      Threat, attempt, use, possess,
                      produce, transfer WMD, and
 WMD Directorate                                                    8
                      Develop or use Nuclear Materials
                      and facilities in the U.S.
Source: FBI

       The Counterterrorism and Counterintelligence Divisions may therefore
administer types of cases that have a WMD connection. For example, a case
involving domestic terrorism may include an investigation into how a suspect
or target can acquire a WMD device. Although the Counterterrorism Division
would lead the case, FBI officials told us that the designated agents in the
field division or at the Directorate would be notified and assist
Counterterrorism agents with the WMD portion of the investigation.
Therefore, because the lead investigative division maintains responsibility for
its cases, even if a WMD issue is revealed in a non-WMD case, the lead
investigative agency would still manage day-to-day case activity. In such an
instance, the WMD Directorate’s role would be to assist Special Agents by
                                      70

providing subject matter expertise with the WMD portion of the other
investigative division’s case.

       Although the WMD Directorate supports all terrorism investigations
that have a connection to WMD, in April 2008, the FBI established new case
classifications to facilitate its WMD mission and transferred certain case
classifications to the WMD sub-program.




                                    71

                                                                            APPENDIX III

            THE WMD INTELLIGENCE REPORTING PROCESS

       Under FBI intelligence reporting guidelines, Intelligence Information
Reports (IIRs) are drafted by Special Agents or Intelligence Analysts and
submitted to a Chief Reports Officer, who assesses whether it complies with
intelligence requirements and other standards. The Chief Reports Officer
also may solicit input from field division leadership before submitting a draft
IIR to the Report’s Section at the Directorate of Intelligence. Analysts at the
Directorate of Intelligence then review the draft IIRs, with input from
headquarters level units such as the WMD Directorate, to ensure that it
contains only accurate and relevant information. 34 Should these analysts
question information presented by the draft IIR or otherwise need to revise
it, they will send the submitting field division a note documenting why they
did not disseminate the IIR and suggest how it can be modified to meet
intelligence requirements.

      The speed at which the Directorate of Intelligence needs to review IIRs
is determined by its designation at either the immediate, priority, or routine
precedence levels. Immediate IIRs contain information that is specific and
extremely time sensitive and the Directorate of Intelligence has 24 hours
from receipt to approve and disseminate the IIR. Priority IIRs are also time
sensitive; however the information they contain does not warrant an
immediate review. Priority IIRs must be reviewed and disseminated within
five business days after receipt. Routine IIR information is of interest to the
larger U.S. Intelligence Community, but their information is not time
sensitive. The Directorate of Intelligence has 10 business days to review
routine IIRs.

       Once draft IIRs are reviewed at the program, field, and headquarters
level, they are disseminated out of the FBI to relevant members of the U.S.
Intelligence Community. While the intelligence production apparatus
includes several stages of review, the collaboration on intelligence reporting
ensures that accurate information is provided to the U.S. Intelligence
Community. Such collaboration also serves to encourage special agents and
Intelligence Analysts, as well as their units, to engage and communicate
toward a common intelligence objective.

       34
           The analysis of FBI field division intelligence is facilitated by the FBI’s Human
Intelligence Program that guides the acquisition and maintenance of people to serve as
intelligence sources. As a part of its review, the Directorate of Intelligence evaluates the
nature and validity of information acquired from human sources, and if necessary,
translates or interprets such information.


                                              72

                                                               APPENDIX IV

      WMD CONTINUING HIGHER EDUCATION PROGRAM

                  COURSE CATALOG


Phase 1: WMD Master’s Certificate Program Courses

1.	   Criminological Theory – Examination of theories with emphasis on
      approaches to crime and criminally deviant behavior

2.	   Pro Seminar – Survey of current research and critical issues. For FBI,
      emphasis on infrastructure threat assessments and protections;
      utilization of Sandia National laboratory subject matter experts

3.	   Hazardous Materials Management – Examines technical and
      management aspects of handling hazardous materials and reviews
      current trends. For FBI, emphasis is placed on the tracking of Hazmat
      versus the disposal of Hazmat, and discussions and review of policies
      and procedures

4.	   Disaster Preparedness – Principles and techniques for preparing for
      various types of disasters. For FBI, emphasis is on the impact to and
      by law enforcement in disaster preparedness

5.	   Criminology Course – Capstone course to integrate all portions of
      certificate program and complete a final project which addresses
      issues relevant to the FBI’s mission in WMD.

Phase 2: WMD Master’s Degree Completion Program Courses

1.	   Legal Issues in Criminology – In-depth study of contemporary legal
      issues faced by criminal justice professions. For the FBI, emphasis is
      on laws surrounding WMD.

2.	   Ethical and Philosophical Issues in Criminology – Intensive
      examination of selected ethical and philosophical issues currently
      facing the field of criminology. For FBI, emphasis is on ethical issues
      surrounding terrorism and WMD prosecutions; detentions and or
      prosecutions-traditional, enemy combatant, and other country
      restrictions or lack thereof.




                                      73

3.	   Research Methods – Methods and techniques of research in
      criminology. For the FBI, emphasis is on research area critical to WMD
      strategy and execution.

4.	   Quantitative Strategies for Analysis in Criminology – Computer
      analysis of quantitative data to the behavior science of criminology.
      For the FBI, emphasis is on terrorism and WMD aspects and critiques
      of terrorism and WMD research.

5.	   Capstone Project – Brings all components of the Masters Program
      courses together to be presented and defended.




                                     74

                                                                                           APPENDIX V

               FBI RESPONSE TO THE DRAFT REPORT

                                                     U.S. Department of Justice


                                                     Federal Bureau of In vestigation


                                                     Wash io Bton. O. C. 20HS·OOOZ

                                                     September II, 2009




Mr. Raymond J. Beaudet
Assistant Inspector General for Audits
United States Department of Justice
Suite 6100
1425 New York A venue, NW
Washington, DC 20530


RE, THE FEDERAL BUREAU OF INVESTIGATION'S WEAPONS OF MASS
DESTRUCTION COORDINATOR PROGRAM
Dear Mr. Beaudet:

               The Federal Bureau oflnvestigation (FBI) appreciates the opportunity to review
and respond to your report entitled, "The Federal Bureau of Investigation's Weapons of Mass
Destruction Coordinator Program" (hereinafter, " Report''). The Report acknowledges and
highlights a number of effective FBI WMD program activities and responsibilities.

                We are pleased the Office of the Inspector General recognizes the importance of
effective domain management by FBI WMD Coordinators within OUT field divisions, specifically
through the prioritization of WMD tlirealS, vulnerabilities and interactions with FBI Intelligence
Analysts. The WMD Coordinators' functions are critical to the work of the FBI and ilS many law
enforcement, intelligence and public safety partners in countering the WMD threat. The FBI has
made strides to increase the competency of, and professionalize, our WMD Coordinators and
Intelligence Analysts through a fonnalized training curriculum and select perfonnance
requirements. With regard to investigative management, including identification of WMD nexus
cases, management of investigative techniques, and coordination of investigative activities with
other related FBI investigative programs, the WMD Directorate has taken a forward leaning
approach toward cross-program integration. Namely, the WMD Directorate has embedded
Supervisory Special Agents and Intelligence AnalyslS into FBI Headquarters counterterrorism
case management Wlits to identify cases with a WMD nexus and leverage WMD subject matter
expertise and resources, thus addressing those cases through a unique blend of investigative,
intelligence, scientific and technical perspectives. Overall this provides a direct benefit to the
WMD Coordinators and field office investigators ensuring comprehensive WMD                     .
countenneasures, investigations and response operations.

               Based on the review of the Report, the FBI concurs with the thirteen
recommendations to standardize WMD Coordinators' domain management responsibilities. By
implementing your recommendations the WMD Directorate will provide increased professional
opportunities and development for the WMD Coordinators and Intelligence Analysts who
prioritize WMD threalS and coordinate activities within their respective domains. Through
collaboration with the Directorate of Intelligence, the WMD Directorate will implement various




                                                   75

Mr. Raymond 1. Beaudet


procedures and practices to address intelligence exchange, perfonnance, tracking and training
relevant to effective domain management

                In conclusion, the FBI appreciates the professionalism exhibited by your staff in
working with our representatives throughout this audit process. The FBI commends your
committed support for the preeminent work of FBI WMD Coordinators and Intelligence Analysts
in countering the global threat ofWMD. Enclosed herein is the FBI's response to the report.
Please feel free CO contact me should you have any questions.



                                                          ZU",
                                                           Vahid Majidi, Ph.D.
                                                           Assistant Director
                                                           WMD Directorate



Enclosure




                                               2




                                                   76

 OIG Audit of the FBI's Weapons of Mass Destruction Threat Preparations FBI Response
                       to Recommendations within the Final Draft


Recommendation 1: “Ensure that a WMD Coordinator or a designated assistant WMD
Coordinator participates in their field division’s WMD domain assessment”

FBI Response to Recommendation #1:

In August 2008, the Weapons of Mass Destruction Directorate (WMDD) initiated the WMD
Domain Awareness Initiative. The WMD Intelligence Analysis Section (IAS) was tasked to
formulate a set of protocols for the research, analysis, and production of WMD Domain
Intelligence Notes. In addition, IAS was directed to manage the process, and the entire program
was approved by WMDD and the Directorate of Intelligence’s (DI’s) Domain Section. The
protocols included the involvement of field WMD Coordinators, particularly near the conclusion
of the process when they would review the initial drafts and provide comment and feedback.

With the creation of the Central Strategic Coordinating Components (CSCC) in 2009 within each
division’s intelligence program, overall management and coordination of field WMD domain
awareness will reside with the Intelligence Program Manager (IPM) and Intelligence Program
Coordinator (IPC) in the CSCC. To ensure all field offices include the participation of WMD
Coordinators, the WMD Directorate and CSCC will ensure participation through proactive
contact with each field office executive management team and Field Intelligence Group (FIG).

Prior to submission of annual field office domain assessments, the CSCC will contact each FIG
to reinforce the message that all WMD Coordinators need to be involved in the drafting of their
WMD assessments. In addition, the CSCC will require each FIG to outline the steps taken to
include their WMD Coordinator’s involvement in the development and review of the assessment.
The FIGs will be required to memorialize this in an Electronic Communication due no later than
31 January of each year.




                                              77

Recommendation 2: “Develop procedures to ensure that field divisions regularly: (1) review
cases for WMD connections and (2) share pertinent case information with appropriate personnel
so it can be evaluated during WMD domain assessments”

FBI Response to Recommendation #2:

The IAS’s Strategic Assessment and Threat Forecasting Unit (SATFU) has developed a
Microsoft Access database template similar to the one referenced on page 23 of the OIG Draft
Report. The SATFU template will be made available to all field divisions. When completed by
the Case Agent, this template will highlight potential WMD links which should be brought to the
attention of the WMD Coordinator and the WMDD. IAS will send guidance to all Joint
Terrorism Task Force (JTTF) Supervisory Special Agents (SSAs), FIGs, and WMD
Coordinators implementing the use of this database template and prompt notification to the
WMD Coordinator regarding relevant links. Field offices will be required to send quarterly
updates of the database to IAS. The data will then be posted on a Share Point site maintained by
IAS and accessible by all FBI personnel.

The WMDD has mandated the use of standard FBI codes and indicators for all counterterrorism
cases as a method of identifying those with a WMD nexus. FBIHQ oversight of these
investigations ensures that field division personnel remain mindful of reviewing and properly
classifying such cases for relevant links.

The above actions will ensure that field offices are reviewing their cases upon initiation, and
quarterly thereafter, for connections to WMD matters. Access to the SATFU database by WMD
Coordinators and the FIG will ensure that they and other appropriate personnel have access to
this information for purposes such as the preparation of WMD domain assessments and the
Semi-Annual Program Review (SAPR). These field office reviews will be in addition to the HQ-
level case coordination between the WMDD and Counterterrorism Division which already exists
and was noted by the OIG.




                                              78

Recommendation 3: “Enhance the sharing of WMD domain entity information acquired by
personnel working with outside groups.”

FBI Response to Recommendation #3:

The WMDD is developing and deploying technological tools and solutions to address domain
assessment and awareness. The WMD Coordinator, Domain Coordinator, and JTTF personnel
will be able to access more information in order to update the field office WMD domain
assessment.

WMDD has established information portals on the SECRET and TOP SECRET network
enclaves using commercial off-the-shelf software accessible by all FBI personnel with access
and a need to know. The latest threat, vulnerability, and countermeasures information from
various internal and external sources is posted to the sites for use by WMD Coordinators. The
portals serve as a cost effective method of communicating large amounts of information in a
timely manner.

WMDD develops CBRNE-related workshops and conferences bringing together WMD
Coordinators, Subject Matter Experts (SMEs), other federal, state and local agencies, and private
entities to discuss current and emerging threats and vulnerabilities to domain entities. Examples
of such conference and workshop initiatives include: The Joint FBI-EPA Regional Food and
Agroterrorism Workshops, the Joint FBI-JTTF Water Terrorism Workshop, regional Improvised
Explosives training, Clandestine Laboratory awareness training, joint FBI/CDC Criminal and
Epidemiological Investigation Workshops, and regional Chemical Industry Outreach Workshops.

Specific domain identification and outreach efforts are to be documented and provided to the
WMDD. The WMDD also requested notification of resulting identifiable accomplishment,
detections, disruptions, investigations, sources, etc. The FBI has partnered with other federal
agencies to conduct a series of CBRNE Tabletop Exercises to improve coordination of incident
response and to prevent potential WMD incidents.

Policies are currently under review and will be approved shortly by WMDD to direct field WMD
Coordinators to coordinate with other field office Program Coordinators within their offices to
regularly share WMD domain information acquired through the above mentioned activities and
initiatives across programs.




                                               79

Recommendation 4: “Ensure that WMD Coordinators submit activity reports at regular
intervals to facilitate tracking activities against domain needs.”

FBI Response to Recommendation #4:

As noted in the OIG Draft Report, WMD Coordinators already submit activity reports to WMDD
on an ad hoc basis, such as following a significant event or when prompted by FBIHQ in
response to a data call by outside groups. In accordance with the recommendations of the OIG,
WMDOU will set policy mandating that these reports be submitted to WMDOU every six
months to cover activities conducted during the three months following the end of the previous
SAPR period. This will require WMD Coordinators to remain focused on their divisions’ needs
and to report their activities to HQ at least once per quarter. The FD-542 statistical
accomplishment macro in Word Perfect (version dated 03/23/2009) has been modified to capture
a wider range of WMD-related activities and is therefore better suited than previous revisions to
serve as the reporting document.

To ensure that activities are being conducted in support of a field division’s individual domain
needs, WMDOU will instruct WMD Coordinators to list and number these needs within the first
paragraph of the narrative section of the FD-542 activity report. The subsequent activities can
then be correlated to the particular domain need or needs which they address. WMDD also notes
that sections II, III, IV, and VI of the most recent version of the SAPR deal with the WMD
Domain Assessment and already require that the WMD Coordinator describe how his/her
activities address the division’s identified threats, vulnerabilities, and gaps.

WMD Coordinators will continue submitting activity reports following significant events and
training exercises, or at other times deemed appropriate.




                                              80

Recommendation 5: “Require that the WMD Directorate track WMD Coordinator activities
against specific WMD domain threats and vulnerabilities to ensure that each field division is
adequately managing its WMD domain.”

FBI Response to Recommendation #5:

The FD-542 activity reports and SAPR’s submitted in accordance with current policies and those
to be enacted pursuant to OIG recommendation #4 above will be received and tracked by
WMDOU. SSAs assigned to the WMDOU will continue to provide feedback to the WMD
Coordinators regarding the effectiveness and relevance of their activities to their division’s
identified threats, vulnerabilities, and gaps.




                                              81

Recommendation 6: “Develop performance-rating plans for the WMD Coordinator position
based on the tasks and skills necessary to manage the WMD domain effectively.”

FBI Response to Recommendation #6:

Due to their official position descriptions and job classification, WMDCs are bound by the
current FBI Performance Appraisal System (PAS) metrics for the Special Agent (SA) job family
(FD-727.2, Rev. 06-01-2006). The focus of these metrics is on efficient, innovative, and capable
application of decision making, organizing and planning, analyzing, maintaining professional
standards, acquiring and sharing job knowledge, achieving results and communicating
effectively. These metrics for the SA also translate and apply to how effectively the WMD
Coordinator is performing their duties. The WMDD therefore assess WMD Coordinator
performance through the use of the SAPR and activity reports, as described in conjunction with
OIG recommendation #4. WMDOU will evaluate the effectiveness of a division’s WMD
program as a whole, with the recognition that the program’s success is largely dependent upon
the collaboration of the WMD Coordinator with Intelligence Analysts and other investigative
personnel within their divisional territory.




                                              82

Recommendation 7: “Require that each field division designate an Intelligence Analyst to meet
with the WMD Coordinator periodically and discuss their planned work and activities and
provide feedback on whether these activities will address prioritized domain needs.”

FBI Response to Recommendation #7:

An integrated workflow between field office Intelligence Analysts and WMD Coordinators is
vital to ensure each field office is adequately assessing and prioritizing their domain needs. The
WMDD will pursue the designation of part time, and full time analytical resources in each field
office where possible, in order to provide central points of contact and facilitate WMD related
analysis. The WMDD will collaborate with the DI to implement this designation over the next
two years. The DI is the principal entity responsible for Intelligence Analyst career development
and management.

In the interim, the WMD Intelligence Program will draft a current list of each field office’s
Intelligence Analyst(s) capable of working on WMD-related issues. This list will be updated on
a six-month basis and posted on the WMD Intelligence Program SharePoint site. The WMDD
will also post an updated and current list of each field office’s WMD Coordinators. These lists
will help field office personnel identify with whom in their divisions they should be working on
WMD matters.

In addition, each field office FIG will be required to outline its analyst and coordinator
integration on a periodic basis through Electronic Communication. Each FIG will memorialize
on a quarterly basis the steps and efforts taken by Intelligence Analysts and WMD Coordinators
to discuss their planned work and activities. These Electronic Communications will provide the
basis for WMDD assessment of how well each field office is doing in enabling analyst-
coordinator collaboration on WMD matters.




                                               83

Recommendation 8: “Permit WMD Coordinators to consider purchases requested by
designated WMD Intelligence Analysts in formulating their field division WMD budget
requests.”

FBI Response to Recommendation #8:

To help facilitate appropriate purchases of WMD materials by field Intelligence Analysts, the
WMDD will work through established DI channels. Functionally, all budget related requisitions
and requests for Intelligence Analysts fall under the DI, the WMDD recognizes the importance
of this issue.

The WMDCU has made available to every WMD Coordinator reference materials, books, and
other educational documents. During Fiscal Year 2010 WMDCU will continue disseminating
such material to all field offices. These materials will be intended for consumption by WMD
Intelligence Analysts as well as Coordinators. To better inform all field office personnel of
materials available, WMDD will disseminate information concerning these materials on an
annual basis to all FBI FIGs. WMD Intelligence Analysts will be encouraged to work with
Coordinators to obtain materials and make special or official requests for additional needs
through the DI and the WMDD.




                                              84

Recommendation 9: “Develop and disseminate WMD Coordinator position qualifications to
field division management and WMD Coordinators to use in appointing future WMD
Coordinators and for delineating the necessary skills and abilities current WMD Coordinators
should obtain.”

FBI Response to Recommendation #9:

The FBI identifies and tracks select new agents with a WMD Specialty Designation based on
relevant educational background and/or work experience.

The WMD Specialty Designation is a sub-specialty that can be applied to any agent regardless of
their designated career path (i.e. criminal, counterintelligence, counterterrorism, cyber,
intelligence). Any WMD training opportunities will be provided under the auspice of the
WMDD's Developmental Plan (see page 14).

The above criteria used to select and train new agents for the WMD Specialty Designation are
also applicable to the selection and training of experienced SAs under consideration to fill
vacancies in WMD Coordinator (or Alternate) positions. WMDOU will send an electronic
communication to all field divisions directing that this criterion be used as guidance when
considering WMD Coordinator (or Alternate) candidates. Personnel filling those roles will also
be required to attend the courses mandated under Phase Two of the WMDD’s Developmental
Plan within one year of assuming the position, and encouraged to complete the path to full
certification.




                                              85

Recommendation 10: “Develop and implement a method that shares and reconciles Training
Readiness Management System data with Virtual Academy records.”

FBI Response to Recommendation #10:

The purpose of Virtual Academy is to maintain training records for all FBI employees; to create
a system for training registration and approval; and to provide a portal for accessing Web-based
training. The purpose of WMDD Training Readiness Management System (TRMS) is to track
the readiness of individual FBI employees and of aggregate entities (e.g. field offices or regions)
to address WMD threats. For this purpose, individual readiness has been defined as the extent to
which an individual employee has completed the WMD training mandated by WMDD given the
employee’s job function and the length of time the employee has occupied a WMD role. For an
aggregate entity, readiness has been defined as a weighted average of the readiness scores of the
tracked employees within the aggregate entity. In order to calculate readiness scores, TRMS
contains data on all WMD-related courses offered inside and outside of the FBI completed by the
tracked employees, ultimately contributing to aggregate readiness scores. TRMS also has
ancillary capabilities, i.e. the ability to determine how proposed future training would impact
aggregate readiness scores thus allowing WMDD to provide new courses positively impacting
readiness levels.

The missions of Virtual Academy and TRMS are different. There is a limited and well-defined
subset of data common to both systems; training records for WMD-related courses. These
records are in Virtual Academy and exported to TRMS. WMD-related courses offered by the
FBI are entered into TRMS from the Virtual Academy. Virtual Academy does not currently
capture training records for courses offered outside the FBI. Therefore, to successfully track
WMD training outside the FBI, these courses must be entered into the WMDD TRMS through
SharePoint. The Virtual Academy Unit is completing the development of a Self-Reported
Training function to capture training outside the FBI. When deployed, the Virtual Academy will
become the sole source of course data for TRMS.




                                               86

Recommendation 11: “Finalize its WMD Coordinator certification program opportunities and
ensure that the finalized certification program offers threat-based courses based on the WMD
domain threats and vulnerabilities within a WMD Coordinator’s field division.”

FBI Response to Recommendation #11:

WMDD National Preparedness Unit (NPU), in conjunction with the Human Resource
Division/Special Agent Career Path Unit, has established a series of WMD specific courses,
exercises and on-the-job requirements for individuals to be certified in the WMD Specialty area.
WMD training opportunities are provided under the auspice of the WMDD's Developmental
Plan (see page 14). The WMDD Developmental Plan is devised in conjunction with the WMD
Specialty Designation for new agents (WMD Specialty Agents); WMD Coordinators will be
required and Assistant WMD Coordinators are encouraged to apply for certification.

Currently, the WMDD's Developmental Plan outlines four stages of WMD development. Stage
One involves an elementary level of WMD training, which is provided to all new agents at the
FBI Academy in Quantico, VA. Stage Two involves additional introductory WMD training an
Agent can pursue post Quantico. Stage Three involves specialized and intermediate levels of
WMD training, as well as acquisition of experience in handling WMD. Upon successful
completion of Stage Three, interested agents are encouraged to submit an application via EC to
the WMD Certification Review Board where the applicant must provide information on WMD
on-the-job training or experience, WMD training they received and provided as instructors, along
with a synopsis of why they are interested in receiving WMD Certification.

The WMD Certification Board will then review these applications on a semi-annual basis. The
WMD Certification Review Board will consist of the following representatives: 1 Unit Chief
(non-voting chairperson) from WMD Operations Unit (WMDOU) or WMD National
Preparedness Unit (WMDNPU), 1 SSA from WMDOU; 1 SSA from WMDNPU; 1 SSA or
Hazardous Materials Officer from the Hazardous Materials Response Unit; and 4 WMD
Coordinators (WMDC) from the field. WMDOU will select the WMDCs who participate.
WMDOU will select one WMDC from each geographic region managed by WMDOU (i.e.
Northeast, Southeast, Central, West). Upon each successful review of applications by the WMD
Certification Review Board, NPU will notify agents via EC whether they will receive WMD
Certification.

Agents who complete the WMD Certification process will receive the following:

       - Certificate signed by the Assistant Director of the WMDD
       - Consideration in WMD Specialty Transfers
       - Consideration in SSA Positions in the WMDD at FBIHQ
       - Peer Recognition




                                              87

Recommendation 12: “Implement a procedure by which the courses offered by the Indiana
University of Pennsylvania Masters Certificate Program and Masters Degree Completion
Program are regularly reviewed and assessed to ensure that course material address the changing
needs of WMD Coordinators and Intelligence Analysts.”

FBI Response to Recommendation #12:

Upon completion of each course sequence, students have been queried by the FBI Program
Manager to ensure the course materials address current areas of concern for WMD personnel. At
least once a quarter, NPU personnel meet with the Indiana University of Pennsylvania (IUP)
Faculty Program Manager, IUP Research Institute personnel, and other IUP Faculty members as
needed, to review and modify (if necessary) the curriculum within the boundaries of the
university's accreditation standards. Between meetings, the FBI Program Manager maintains
regular contact with IUP faculty and staff to ensure the program remains on track and meets the
needs of the WMDD. This process has been in place since the inception of the program.

Based upon the recommendations from the participants in the two initial cohorts (course
iterations), the following changes have been implemented:

   •	 Delivery of the textbooks and the course syllabus to the participants a few weeks in
      advance of the course start dates to allow participants to read ahead and begin course
      assignments prior to the start of the course

   •	 Brief the IUP faculty members regarding the participants’ backgrounds to prevent them
      from covering material already know by the participants (e.g. Incident Command System
      (ICS) and National Incident Management System (NIMS))

   •	 Change the sequence of the courses to allow for more logical progression of the course
      work

   •	 Survey of current and over-the-horizon threats to make sure the course curriculum stays
      relevant




                                              88

Recommendation 13: “Develop a targeted WMD training plan encompassing both general and
specific WMD-knowledge requirements for Intelligence Analysts who work with WMD
Coordinators that address the specific vulnerabilities.”

FBI Response to Recommendation #13:

The WMDD has ongoing efforts to assist field office personnel—both WMD Coordinators and
Intelligence Analysts. WMDD’s Countermeasures Unit has encouraged field offices to provide
funding to send their coordinators and analysts to all WMDD-approved training opportunities.
WMDD’s National Preparedness Unit has also made WMDD Special Agent Career Path (SACP)
courses accessible to field office Intelligence Analysts working WMD-related matters. SACP
courses are threat-based courses that are aligned with the national threats, priorities, and goals.

All Intelligence Analyst training is managed by the DI and the WMDD will work with the DI’s
Intelligence Training Coordination Unit to develop a field office WMD Intelligence Analyst
curriculum of required and elective WMD courses offered by FBI and other US Government
agencies. The WMD Intelligence Program will complete its internal list of required and elective
courses by 31 December 2009, and this list will be provided to ITCU to help formulate a targeted
training plan for field office Intelligence Analysts.




                                                89

                                                                APPENDIX VI

          OIG SUMMARY AND ANALYSIS OF ACTIONS 

               NECESSARY TO CLOSE REPORT


      The OIG provided a draft of this report to the FBI, and the FBI’s
response to the report recommendations is included in Appendix V. In
addition, the FBI provided the OIG an addendum to its formal response that
it considered law enforcement sensitive because it detailed specific activities
planned or undertaken to address recommendations 2, 3, and 9. This
addendum is not included in this report, but we considered this information
in assessing the status of these recommendations. The following provides
the OIG analysis of the FBI’s response and a summary of actions necessary
to close the report.

Summary of Actions Necessary to Close the Report

1.	   Resolved. The FBI concurred with our recommendation to ensure
      that a WMD Coordinator or a designated assistant WMD Coordinator
      participates in their field division’s WMD domain assessment. The FBI
      recently created the Central Strategic Coordinating Components
      (CSCC) within each division’s intelligence program and reported that
      overall management and coordination of field WMD domain awareness
      will reside with the CSCC. The FBI reported that, prior to the
      submission of annual field office domain assessments, the CSCC will
      contact each Field Intelligence Group to ensure that WMD Coordinators
      are involved in the WMD assessment process. The CSCC will require
      each Field Intelligence Group to outline and report annually the steps
      taken to include WMD Coordinators in the development and review of
      the domain assessment. This recommendation can be closed when
      the FBI provides evidence that its WMD Coordinators work with Field
      Intelligence Groups in the domain assessments process.

2.	   Resolved. We recommended that the FBI develop procedures to
      ensure that field offices regularly: (1) review cases for WMD
      connections and (2) share pertinent case information with appropriate
      personnel so it can be evaluated during WMD domain assessments.
      The FBI concurred with our recommendation and stated that it is
      developing a database template for its field offices to highlight
      potential WMD links in cases. According to the FBI, these links will
      then be brought to the attention of both the WMD Coordinator and the
      WMD Directorate.



                                      90

      The FBI also responded that it will issue guidance to its Joint Terrorism
      Task Forces, Supervisory Special Agents, Field Intelligence Groups,
      and WMD Coordinators to ensure that these groups and officials use
      this database template and notify the WMD Coordinator when they
      identify relevant WMD links. The FBI is also requiring that its field
      offices send quarterly database updates to FBI Headquarters, thereby
      ensuring that field divisions are reviewing their cases regularly for
      WMD connections. This recommendation can be closed when the FBI
      provides copies of (1) the database template and (2) the guidance it
      provided to its Joint Terrorism Task Forces, Supervisory Special
      Agents, Field Intelligence Groups, and WMD Coordinators regarding
      the proper use of the database template.

3.	   Resolved. We recommended that the FBI enhance the sharing of
      WMD domain entity information acquired by personnel working with
      outside groups. The FBI concurred with this recommendation and
      reported that it is continuing to develop new tools to enhance updating
      and sharing of WMD domain entity information. For example, the FBI
      said it is developing applications for WMD Coordinators to use in
      displaying domain entities and classified information portals that can
      be used to post the up-to-date information on threats, vulnerabilities,
      and countermeasures. In addition, the FBI is developing WMD-related
      workshops, conferences, and tabletop exercises with outside entities.

      The FBI has also directed its field offices to provide the WMD
      Directorate the results of any outreach with certain types of domain
      entities. In its response, the FBI further advised that it is developing
      policies that will ensure that WMD Coordinators work with other field
      office personnel to share WMD domain information. This
      recommendation can be closed when the FBI provides (1) evidence
      that field offices are reporting relevant outreach results to the WMD
      Directorate and (2) copies of the issued policies directing WMD
      Coordinators to coordinate and share information with other
      coordinators in their field offices.

4.	   Resolved. The FBI concurred with our recommendation to ensure
      that WMD Coordinators submit activity reports at regular intervals to
      facilitate tracking their activities against domain needs. The FBI
      reports that it has updated the standard activity report format to
      capture additional WMD Coordinator activities and will mandate that
      WMD Coordinators submit these activity reports on a regular basis. To
      ensure that WMD Coordinator activities are being conducted in support
      of a field division's unique domain needs, the FBI will require that the


                                      91

      WMD Coordinators identify their domain needs in their standard
      activity report.

      This recommendation can be closed when the FBI provides (1) a copy
      of the updated activity report format that WMD Coordinators use to
      report their activities, (2) a copy of the policy that mandates regular
      activity report submissions, and (3) evidence that WMD Coordinators
      use activity reports to detail their activities for comparison against
      identified domain needs.

5.	   Resolved. We recommended that the FBI require that its WMD
      Directorate track WMD Coordinator activities against specific WMD
      domain threats and vulnerabilities to ensure that each field division is
      adequately managing its WMD domain. The FBI agreed with this
      recommendation and stated that the WMD Directorate will use the
      updated activity report format that includes domain information to
      provide feedback to WMD Coordinators and ensure that they address
      domain threats and vulnerabilities. This recommendation can be
      closed when the FBI provides evidence that (1) WMD Coordinators are
      submitting activity reports on a regular basis and (2) the WMD
      Directorate is using this information to track WMD Coordinator
      activities against specific WMD domain threats and vulnerabilities.

6.	   Resolved. We recommended that the FBI develop performance-rating
      plans for the WMD Coordinator position based on the tasks and skills
      necessary to manage their WMD domains effectively. In its response,
      the FBI concurred with the recommendation but advised that under its
      current agency-wide performance appraisal system WMD Coordinators
      must be rated as Special Agents. Therefore, while the FBI cannot
      develop performance rating plans for the WMD Coordinator position,
      the FBI stated that it will use Special Agent metrics – namely whether
      a Special Agent is efficient, innovative, and capable of decision
      making, organizing and planning, analyzing, maintaining professional
      standards, acquiring and sharing job knowledge, achieving results, and
      communicating effectively – to assess WMD Coordinator performance.

      The FBI also stated that it will actively assess the overall effectiveness
      of each field division’s WMD program by reviewing results of Semi-
      Annual Program Reviews and the updated WMD Coordinator activity
      reports. This recommendation is resolved based on the FBI’s plans to
      assess both WMD Coordinator and WMD program performance at each
      field division. This recommendation can be closed once the FBI
      provides evidence that its assessments of each field division’s WMD
      program are consistently considered and used by field office managers

                                      92

      and supervisors to help rate individual WMD Coordinator performance
      that use Special Agent metrics.

7.	   Resolved. We recommended that the FBI require each field division
      to designate an Intelligence Analyst to meet with the WMD Coordinator
      periodically to discuss planned work and activities and provide
      feedback on whether these activities will address prioritized domain
      needs. The FBI agreed with this recommendation and stated that it is
      working to designate analytical resources at each field office. The FBI
      also stated that its WMD Directorate is taking immediate steps to
      ensure that WMD Coordinators can identify who at each field office can
      provide them WMD intelligence support.

      This recommendation can be closed when the FBI provides the OIG:
      (1) copies of any guidance made available to WMD Coordinators that
      identifies the Intelligence Analysts capable of working on WMD-related
      issues, (2) copies of field office reports on designating Field
      Intelligence Group resources to work with WMD Coordinators, and
      (3) evidence that it has formalized and implemented an agency-wide
      solution that ensures collaboration on WMD matters between WMD
      Coordinators and field division Intelligence Analysts.

8.	   Resolved. We recommended that the FBI permit WMD Coordinators
      to consider purchases requested by designated WMD Intelligence
      Analysts in formulating their field office WMD budget requests. The
      FBI agreed with this recommendation and stated that it is working to
      facilitate purchases of material and equipment needed by Intelligence
      Analysts.

      The FBI also stated that its WMD Directorate is providing reference
      materials, such as books and educational documents, to all field
      offices, which can be used by WMD Coordinators and Intelligence
      Analysts. To ensure that all Intelligence Analysts know that the each
      field division has WMD reference material, the FBI said it plans to
      inform its Field Intelligence Groups annually that the WMD Coordinator
      has these materials.

      To close this recommendation, the FBI should provide evidence that its
      WMD Coordinators can consider the shared program needs offered by
      WMD-designated Intelligence Analysts in formulating their budgets and
      providing WMD–related materials for their field office. The annual
      advisement to Field Intelligence Groups regarding the availability of
      WMD reference materials should also provide WMD Coordinators and
      Intelligence Analysts an opportunity to request additional WMD-specific

                                     93

      resources. Individual Intelligence Analysts could then make known a
      need for specific WMD material to the WMD Coordinator, who could
      then consider the request in formulating a budget or updating the
      WMD Directorate if this request addresses a potential agency-wide
      need. If the requested material primarily concerns intelligence or
      analytical capabilities, the WMD Coordinator or the WMD Directorate
      could then relay the request to Directorate of Intelligence for
      resolution.

9.	   Resolved. We recommended that the FBI develop and disseminate
      WMD Coordinator position qualifications to field division management
      and WMD Coordinators to use in appointing future WMD Coordinators
      and for delineating the necessary skills and abilities current WMD
      Coordinators should obtain. The FBI agreed and provided criteria used
      for purposes of selecting and training Special Agents for the WMD
      Specialty Designation. The FBI stated that these criteria will be used
      to select and train experienced Special Agents to fill WMD Coordinator
      vacancies.

      The FBI also stated in its response that personnel who fill these
      positions will be required to complete certain courses within 1 year of
      assuming the position. This recommendation can be closed when the
      FBI provides the OIG a copy of the policy disseminated to all field
      offices regarding WMD Coordinator qualifications.

10.	 Resolved. We recommended that the FBI develop and implement a
     method that shares and reconciles Training Readiness Management
     System data with Virtual Academy records. While agreeing with the
     recommendation, the FBI emphasized that the missions of the Virtual
     Academy system and the Training Readiness Management System are
     different and, as a result, both capture a limited and well-defined
     subset of data – WMD training offered by the FBI. Therefore, the FBI
     stated that it is developing a self-reported training function that will
     allow Virtual Academy to capture non-FBI training.

      The recommendation recognizes that the FBI’s Virtual Academy
      system and its Training Readiness Management System will both
      capture and use a limited subset of data. Importantly, once Virtual
      Academy is adjusted to record and track non-FBI training, the amount
      of data shared between the two systems will increase. This
      recommendation therefore seeks to ensure that any shared data is
      complete and accurate. To close this recommendation, the FBI should
      provide evidence that once Virtual Academy is used to record non-FBI


                                      94

     training, the FBI is using Virtual Academy training records to update
     relevant portions of its Training Readiness Management System.

11.	 Resolved. We recommended that the FBI finalize its WMD
     Coordinator certification program opportunities and ensure that the
     finalized certification program offers threat-based courses based on
     the WMD domain threats and vulnerabilities within a WMD
     Coordinator’s field office. The FBI concurred with this recommendation
     and stated that the WMD Directorate has worked with the Human
     Resource Division to establish a series of WMD-specific courses,
     exercises, and on-the-job requirements for WMD certification. After
     completing certain WMD training courses, the FBI is encouraging
     Special Agents to apply for WMD Certification. According to the FBI,
     all WMD Coordinators will be required to apply for certification. This
     recommendation can be closed when the FBI provides evidence that
     (1) WMD Coordinators are applying for and maintaining WMD
     Certification, which thereby ensures that WMD Coordinators complete
     a certain level of WMD coursework; and (2) WMD Coordinators are
     receiving threat-based training aligned to field division WMD domain
     threats and vulnerabilities.

12.	 Closed. We recommended that the FBI implement a procedure by
     which the courses offered by the Indiana University of Pennsylvania
     Masters Certificate Program and Masters Degree Completion Program
     (Program) are regularly reviewed and assessed to ensure that course
     materials address the changing needs of WMD Coordinators and
     Intelligence Analysts. The FBI agreed and has instituted procedures
     that ensure that the Program meets the needs of the FBI’s WMD
     personnel. For example, the FBI stated that after each course
     sequence it queries students to ensure that course material addressed
     their concerns. The FBI has also met and discussed the curriculum
     and necessary modifications with the Indiana University of
     Pennsylvania. The FBI provided a list of changes made within the
     program as a result of student queries and meetings with University
     personnel. Based on this evidence, the OIG considers this
     recommendation closed.

13.	 Resolved. We recommended that the FBI develop a targeted WMD
     training plan encompassing both general and specific WMD-knowledge
     requirements for Intelligence Analysts who work with WMD
     Coordinators. This plan should address the specific vulnerabilities and
     threats of a field division’s WMD domain. The FBI concurred with the
     recommendation and is having its WMD Directorate work with its
     Directorate of Intelligence to develop a field office WMD Intelligence

                                     95

Analyst curriculum. The FBI reported that a list of required and
elective courses will be developed by December 31, 2009, and will be
used to help formulate a targeted training plan for field office
Intelligence Analysts. This recommendation can be closed when the
FBI provides the OIG with a copy of the finalized targeted training plan
for field office Intelligence Analysts who work with WMD Coordinators.




                               96

